<html>
<title> - RUSSIAN INFLUENCE AND UNCONVENTIONAL WARFARE OPERATIONS IN THE ``GRAY ZONE'': LESSONS FROM UKRAINE</title>
<body><pre>[Senate Hearing 115-184]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 115-184

                  RUSSIAN INFLUENCE AND UNCONVENTIONAL
     WARFARE OPERATIONS IN THE ``GRAY ZONE'': LESSONS FROM UKRAINE

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                   EMERGING THREATS AND CAPABILITIES

                                 of the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 29, 2017

                               __________

         Printed for the use of the Committee on Armed Services



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





        Available via the World Wide Web: http://www.fdsys.gov/
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

28-945 PDF                     WASHINGTON : 2018 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001



















                      COMMITTEE ON ARMED SERVICES

            JOHN McCAIN, Arizona, Chairman
JAMES M. INHOFE, Oklahoma           JACK REED, Rhode Island
ROGER F. WICKER, Mississippi        BILL NELSON, Florida
DEB FISCHER, Nebraska               CLAIRE McCASKILL, Missouri
TOM COTTON, Arkansas                JEANNE SHAHEEN, New Hampshire
MIKE ROUNDS, South Dakota           KIRSTEN E. GILLIBRAND, New York
JONI ERNST, Iowa                    RICHARD BLUMENTHAL, Connecticut
THOM TILLIS, North Carolina         JOE DONNELLY, Indiana
DAN SULLIVAN, Alaska                MAZIE K. HIRONO, Hawaii
DAVID PERDUE, Georgia               TIM KAINE, Virginia
TED CRUZ, Texas                     ANGUS S. KING, JR., Maine
LINDSEY GRAHAM, South Carolina      MARTIN HEINRICH, New Mexico
BEN SASSE, Nebraska                 ELIZABETH WARREN, Massachusetts
LUTHER STRANGE, Alabama             GARY C. PETERS, Michigan   
        
                     Christian D. Brose, Staff Director
            Elizabeth L. King, Minority Staff  Director
<____________________________________________________________________

           Subcommittee on Emerging Threats and Capabilities

                     JONI ERNST, Iowa, Chairman
ROGER F. WICKER, Mississippi         MARTIN HEINRICH, New Mexico
DEB FISCHER, Nebraska                BILL NELSON, Florida
DAVID PERDUE, Georgia                JEANNE SHAHEEN, New Hampshire
TED CRUZ, Texas                      GARY C. PETERS, Michigan
                                     
                                     
                                     

                                  (ii)

  




















                         <HEAD>C O N T E N T S

<RULE>_________________________________________________________________

                             March 29, 2017

                                                                   Page

Russian Influence and Unconventional Warfare Operations in the        1
  ``Gray Zone'': Lessons From Ukraine.

Oliker, Olga, Senior Advisor and Director, Russia and Eurasia         3
  Program, Center for Strategic and International Studies.
Carpenter, Michael R., Senior Director, Biden Center for             12
  Diplomacy and Global Engagement, University of Pennsylvania.
Cleveland, Lieutenant General Charles T., USA (Ret.), Senior         20
  Fellow, Madison Policy Forum, and Former Commanding General, 
  United States Army Special Operations Command.

Appendix A.......................................................    38

                                 (iii)

 
                  RUSSIAN INFLUENCE AND UNCONVENTIONAL
     WARFARE OPERATIONS IN THE ``GRAY ZONE'': LESSONS FROM UKRAINE

                              ----------                              


                       WEDNESDAY, MARCH 29, 2017

                           U.S. Senate,    
                   Subcommittee on Emerging
                          Threats and Capabilities,
                               Committee on Armed Services,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:03 a.m. in 
Room SR-222, Russell Senate Office Building, Senator Joni Ernst 
(chairman of the subcommittee) presiding.
    Subcommittee members present: Senators Ernst, Fischer, 
Sasse, Shaheen, Heinrich, and Peters.

            OPENING STATEMENT OF SENATOR JONI ERNST

    Senator Ernst. Good morning, everyone. We will call this 
meeting of the Subcommittee on Emerging Threats and 
Capabilities to order.
    I want to thank the witnesses for being here today. This is 
a very important topic, and we are glad to have you and 
appreciate your point of view.
    Today, the Emerging Threats and Capabilities Subcommittee 
meets to receive testimony on Russian influence and 
unconventional warfare operations in the ``gray zone'' and the 
lessons learned from those operations in Ukraine.
    I would like to welcome our distinguished witnesses this 
morning: Dr. Olga Oliker, senior advisor and director of the 
Russia and Eurasia Program at the Center for Strategic and 
International Studies; Dr. Michael Carpenter, senior director 
of the Biden Center for Diplomacy and Global Engagement at the 
University of Pennsylvania; and retired Lieutenant General 
Charles Cleveland, former commander of U.S. Army Special 
Operations Command and currently a senior fellow at the Madison 
Policy Forum. Thank you very much for joining us today.
    The invasion and illegal annexation of Crimea in the spring 
of 2014 represents the breadth of Russia's influence campaign 
in Ukraine and the violation of Ukrainian sovereignty 
represents the first attempt to change the boundary of a 
European nation since the end of the Cold War. Russian 
operations span the spectrum from covert information operations 
intended to influence political opinion to overt deployment of 
military forces for unconventional warfare designed to dominate 
civilian populations. We cannot afford to understate its 
importance or ignore its lessons. It is my hope our witnesses 
can help us understand in more detail what happened, why it was 
successful, and how to stop it from happening again in the 
future.
    Last week, the commander of United States European Command 
[EUCOM], General Scaparrotti, characterized the Russian 
operations in Crimea as activities short of war or, as it is 
commonly referred to, the ``gray zone.'' Russia's gray zone 
activities in Crimea are important for us to review today and 
unique because it was an influence campaign of propaganda and 
disinformation, culminating in the employment of Russian 
special operations forces on the sovereign territory of 
Ukraine.
    This hearing today also allows us to discuss our own 
special operations forces. It is time we review their 
unconventional warfare capabilities.
    I look forward to hearing from General Cleveland about his 
thoughts on the need to strengthen the capabilities in our 
special operations forces which may have understandably 
atrophied after over a decade focused on direct action 
counterterrorism missions.
    The Russian influence campaign and unconventional warfare 
efforts in Ukraine contain all the hallmarks of the gray zone 
operations: ambiguity of attribution, indirect approach, and 
below the threshold of open conflict. As we continue to see 
Russia conduct these operations across the globe, I hope our 
witnesses today can better help us understand and better 
counter these efforts.
    Senator Heinrich, would you like an opening statement?

              STATEMENT OF SENATOR MARTIN HEINRICH

    Senator Heinrich. Thank you, Chairwoman Ernst. I want to 
thank you for holding this important hearing and thank our 
witnesses for their testimony on Russia's use of influence 
activities and unconventional warfare in the so-called gray 
zone that encompasses the struggle between nations and other 
non-state actors short of direct military conflict.
    This hearing builds on the testimony the full committee 
received last week on the security situation in Europe. At last 
Thursday's hearing, General Scaparrotti, commander of United 
States European Command, stated that Russia is using a range of 
military and nonmilitary tools to, ``undermine the 
international system and discredit those in the West who have 
created it''.
    When I asked him about Russia's conduct of denial, 
deception, and disinformation operations, General Scaparrotti 
stressed that Russia takes not only a military approach but a, 
``whole-of-government approach'' to information warfare to 
include intelligence and other groups, which accounts for its 
rapid and agile use of social media and cyber.
    Russia's use of the full range of political, economic, and 
informational tools at its disposal provides it the means to 
influence operations in the gray zone short of a direct 
conventional war. Today's hearing is an opportunity to examine 
the lessons drawn from Russia's maligned activities in the 
Ukraine.
    In 2014, General Scaparrotti's predecessor at EUCOM 
Commander General Breedlove said that Russia was engaged in, 
``the most amazing information warfare blitzkrieg we have ever 
seen in the history of information warfare''. Russia used 
information warfare as a dimension of its own military 
operations in Ukraine, including the sowing of confusion and 
disorganization prior to initiating more traditional military 
operations.
    Russia's combination of information warfare with other 
unconventional warfare techniques, including the training, 
equipping, and advising of proxies and funding of separatist 
groups, is what allowed them to, ``change the facts on the 
ground'' before the international community could respond 
effectively through traditional means.
    This is relevant not simply as a history lesson but to 
better prepare us for the kinds of operations we can expect to 
see Russia conduct in the future. For example, the January 2017 
intelligence community assessment on Russian activities and 
intentions in the 2016 United States presidential election 
assessed that what occurred last year represents a significant 
escalation in Russia's influence operations that is likely to 
continue here in the United States, as well as elsewhere.
    So there is much to explore with our witnesses this 
morning, and again, I thank them and look forward to their 
testimony.
    Senator Ernst. Thank you, Ranking Member. We will start 
with Dr. Oliker, please.

 STATEMENT OF OLGA OLIKER, SENIOR ADVISOR AND DIRECTOR, RUSSIA 
  AND EURASIA PROGRAM, CENTER FOR STRATEGIC AND INTERNATIONAL 
                            STUDIES

    Dr. Oliker. Thank you very much, Chairwoman Ernst, Ranking 
Member Heinrich, members of the subcommittee. I am honored to 
be here today. So I have been asked to address the topic of 
Russian influence and unconventional warfare operations in the 
gray zone, lessons from Ukraine. I will talk briefly about what 
we saw in Ukraine, a little bit about Russian activities 
elsewhere, and then I will talk about how the Russians appear 
to think about these issues. I will conclude with some thoughts 
about what that means for all of us.
    Really quick, a definitional point as it were. We are 
talking--when we talk about the gray zone, we are talking in 
this case about operations that are not clearly peace or war 
and perhaps intentionally meant to blur the line between the 
two. A note of caution is that these lines are always a bit 
blurry. When Carl von Clausewitz wrote that war is an extension 
of politics, he did not mean the politics ends when war begins. 
Rather, we should expect military, political, economic, and 
diplomatic instruments to be brought to bear to attain national 
goals, together and separately.
    But when we talk about the two things I think we are going 
to focus on here today, military actions characterized by 
subterfuge and efforts to mask who is and who is not a 
combatant and information operations, we have a different--we 
face a bit of a different challenge. One of these, information 
influence operations, clearly on the noncombat side of the 
equation. On the other hand, subterfuge and efforts to mask who 
is and who is not a combatant are something that the Russians 
have been exercising increasingly and increasingly effectively. 
I think we want to think about both of these less in terms of 
whether they are or are not gray zone and more in terms of 
their strategic effects.
    So turning to Ukraine, in terms of the public information 
campaign, Russian language print, internet, and television 
media had pretty heavy saturation in Ukraine long before 2014 
and particularly in Crimea and in the east. They propagated a 
narrative in 2013 in the lead up to the expected EU [European 
Union] Association signature that was meant to convince 
audiences that EU Association would lead to political chaos and 
economic collapse of Ukraine, and social media activism 
amplified these messages.
    As time went on and as unrest grew, the message came to 
include attacks on the protesters on Ukraine's Maidan 
Nezalezhnosti, Independence Square. They attacked the 
government that took control after Yanukovych fled the country. 
They attacked Western governments, which were depicted as 
orchestrating what was termed a fascist coup. Eventually, of 
course, they attacked the elected government of President Petro 
Poroshenko.
    Now, these messages probably resonated most with people 
already inclined to believe them, people who were nervous about 
EU Association and distrustful of the West. That was a lot of 
folks in both Crimea and east Ukraine. So Russian information 
operations I would argue may have helped bring some of those 
people into the streets, implemented some of the unrest, but I 
would also point out that it is important to remember that is 
not how Russian annexed Crimea. This, while almost bloodless, 
was a military operation made possible in large part by 
Russia's preexisting preponderance of force on the peninsula. I 
would also say that information influence operations of this 
sort were not responsible for keeping the conflict in east 
Ukraine going. That also took Russian military support and 
eventually Russian troops.
    Another form of influence that I would like to talk about 
in Ukraine is that engendered by economic and political ties. 
Ukraine's and Russia's economies were deeply intertwined since 
the collapse of the Soviet Union. Some of this was corrupt, 
including with the Yanukovych regime and its supporters. Some 
of it was not. I would argue that corrupt ties, just like the 
rest of the corruption in Ukraine, creates a lobby and created 
a lobby against EU Association, which was going to bring with 
it requirements of greater transparency and more open business 
climates. But the broad range of economic relationships, many 
of them completely legal, also worried Ukrainians who thought 
that their livelihoods were genuinely less certain if ties with 
Russia waned. Many of those people were in Ukraine's east and 
south.
    On the military side, of course the most touted example of 
Russian unconventional operations is the insertion of 
additional forces into Crimea in late February of 2014. Wearing 
uniforms without insignia, these personnel, which we termed 
little green men and the Russians termed polite people, 
pretended to be Ukrainian soldiers and police. They seized the 
Parliament building. They surrounded an airbase. The lack of 
uniform markings contributed to confusion, and enabled Russia 
to deny their deployment of additional forces to Crimea.
    Similarly, Russia has denied its support for separatists in 
eastern Ukraine, as well as the insertion of its regular army 
troops into that fight as both advisors and active forces. As 
with Crimea, this feeds confusion and allows for deniability. 
The actual fighting in east Ukraine though is very 
conventional, tending towards a great deal of artillery and 
some trench warfare.
    Cyber tools have been used by Russia but with limited 
effect. The most interesting exception is the December 2015 
attack on Ukraine's power grid, which took down electricity to 
hundreds of thousands of people for several hours. So that is 
interesting because it is using cyber tools for the sorts of 
effects you might normally use military forces for. But again, 
the effect in this particular case was not that great.
    So turning outside Ukraine, we see influence operations in 
full swing in Europe and even here in the United States, and I 
am not sure I would actually call those gray zone, but I would 
call them efforts to undermine and subvert Western unity and 
trust in existing governments and institutions, so I do think 
there are important.
    So in some ways what Russia does elsewhere is similar to 
what it does in Ukraine. Russian language media targets 
Russian-speaking populations around the world, particularly in 
neighboring countries where the media is often popular. Russia 
also supports outlets around the world such as RT [Russia 
Today] and Sputnik, which broadcasts in other languages, 
including English. The M.O. [Modus Operandi] of these outlets 
is to raise questions about the reporting of other sources and 
of other government statements and views such as by denying 
Russian military presence in Ukraine. They also tend to 
highlight what they portray as the hypocrisy of these non-
Russian governments, for instance, collateral damage caused by 
United States and NATO military actions. These messages are 
then amplified by social media, including through so-called 
trolls.
    Happily, there is no evidence to date that these messages 
are reaching audiences previously unfavorable to them and 
changing minds. Just like in Ukraine where Russian messages 
were most effective with those predisposed to trust them, the 
same is true around the world. I would argue that the real 
threat posed by these phenomena is less their independent 
effect but the fact that they fall into an echo chamber. They 
are one sliver of a much larger increase in chaos and untruth 
in the information space as a whole.
    The widespread use of these same techniques of smears, 
blatant lies, uncorroborated reporting, amplified by like-
minded social media users, real and robotic, created an 
environment in which it is indeed really hard to tell truth 
from falsehood. The resulting situation is not so much one in 
which more people trust Russian sources but one in which people 
only trust whichever sources they prefer and discount all the 
others. This is dangerous. Russia is exploiting it, but we make 
a mistake if we look at it as uniquely or predominantly a 
Russian threat.
    I also want to talk a little bit about Russian economic 
influence in Europe and elsewhere. Here, too, it is a bit of a 
mixed bag. Countries where there are strong business ties to 
Russia do indeed tend to have lobbies that support closer ties 
at the national level. This is not necessarily nefarious, 
right? It becomes nefarious when we see efforts on the part of 
the Russian Government to leverage it into something that 
increases Russian influence in ways that are not for the good 
of both countries.
    A greater concern might be Russian support for fringe 
parties in Europe. We see these ties in Hungary, in France, in 
Austria, among others. We do see that leaders and members of 
right-wing and ultranationalist parties throughout the West 
have looked to Russia as a model, and we have seen that the 
Kremlin increasingly looks at these groups and supporting them 
because they tend to be anti-EU and sometimes anti-NATO as a 
mechanism for weakening Western unity. Russia, I would argue, 
might be particularly emboldened by what looks like recent 
success on this front, though I would also point out that the 
Kremlin is increasingly very nervous about its own right-wing 
nationalists and has been cracking down on them. So that is 
something to keep in mind.
    So in the United States of course our intelligence agencies 
have judged that Russia was trying to influence our election 
last year. There is nothing unusual, I would say, about using 
cyber tools to collect intelligence. It is unusual and crosses 
any number of lines to then take action to use the information 
collected that way to interfere in other countries' political 
processes. It is likely to me that Russia's expectations were 
that they could disrupt the United States election, 
contributing to confusion and raising questions about its 
legitimacy.
    If they believe this has been successful and even more so 
if they judge that they had a hand in the outcome, something I 
personally do not believe to be the case, they may be 
emboldened to undertake similar actions elsewhere and also in 
the United States again. We see evidence of this in Europe. 
This said, I would underline the fact that Russian efforts 
exploit weaknesses already in place rather than creating them.
    So what do the Russians think about all this? The Russians 
are writing a lot about the broad range of mechanisms that can 
advance national and political goals. What is interesting is 
that they write about them not as approaches Russia can use but 
rather as tools that are being developed by the West against 
Russia, and they cite everything from economic sanctions to 
their longstanding complaint about supportive what they call 
colour revolutions. They view this as a concerted whole-of-
government effort to weaken and overthrow governments abroad 
and that Russia has to learn how to counter these.
    They assume a substantial Western advantage in all of these 
areas, and importantly, Russian writing on the future of war 
also tends to emphasize the importance of conventional warfare 
and particularly air power and advanced technologies. So I 
think this is a very interesting thing to keep in mind. Their 
argument is that we do this to them, and when they write about 
the things that they see in the American literature, they 
completely ignore the references to Russia undertaking these 
actions.
    So, bottom line, I think there is no question that Russia 
is undertaking action across the spectrum of political, 
diplomatic, and military power. I would warn against viewing 
Russian approaches as a well-thought-out strategy throughout 
the world. Russia is testing approaches, it is experimenting, 
and it is trying to build on successes. So I would say one of 
the most important lessons for us to take from Russia's action 
in Ukraine and elsewhere is that Russia is learning lessons. It 
is studying what works and what does not. It is assessing how 
to adapt these techniques.
    So take Crimea and east Ukraine. The Crimea operation was 
extremely successful. Russian planners then thought something 
similar could succeed in eastern Ukraine and perhaps Ukraine as 
a whole. They were proven wrong. They adapted, they 
recalibrated, they changed their approach. So this is one of 
many reasons that I do not think a Crimea-like scenario is what 
we should be worrying about in, say, Estonia or elsewhere in 
the Baltics.
    Russia's ability to use military personnel without insignia 
while denying their presence was not just specific to the 
Ukrainian situation. It was also not decisive in the success or 
failure of Russian efforts. Russia's success rather was based 
on the combination of large-scale military presence and a 
Crimea population that was confused and sympathetic. This way, 
the insertion of the personnel without insignia could be 
helpful, and all of this, we must remember, worked far less 
well in east Ukraine with a more skeptical population and 
failed entirely elsewhere such as in Odessa.
    So not only is there excellent reason to think that the 
population of, say, Narva and Estonia, which a lot of us think 
about a lot, has more in common with Odessa than Donetsk or 
Sevastopol, but I would also point out that Estonians are at 
this point hyperaware of this particular threat and the 
Russians know that and they know all of this and they know all 
of these lessons. So should Russia have designs on the Baltics, 
they may try many things, but I would be surprised if the 
operation looked much like anything we saw in Ukraine.
    One question I am asking myself today is whether there is a 
Crimea equivalent in the influence operation space. Is there a 
point at which Russia feels it has hit upon a successful tactic 
but it overreaches? I believe that its efforts to affect 
election campaigns may get them to that point, but Russia's 
limitations in its efforts to weaken existing institutions 
depend tremendously on the strength of those institutions. 
Russian tools exploit weaknesses. The challenge then is to 
eliminate or at least mitigate those weaknesses.
    I will close there. I thank you, and I look forward to your 
questions.
    [The prepared statement of Dr. Oliker follows:]

                 Prepared Statement by Dr. Olga Oliker
    Subcommittee Chair Ernst, Ranking Member Heinrich, and members of 
the subcommittee, I am honored to be here today. I have been asked to 
address the topic of Russian influence and unconventional warfare 
operations in the ``gray zone:'' lessons from Ukraine. I begin by 
defining terms a bit, because there are a few ways to think about this 
question. I will then talk briefly about what we have seen in Ukraine, 
Russian activities elsewhere, and how Russians appear to think about 
these issues, before concluding with some thoughts about what we in the 
United States might learn from these experiences.
                          defining terminology
    The ``gray zone'' means different things to different people. In 
the United States in recent years, one definition that has emerged is 
geographical. It refers to countries and parts of the world to which 
there is not a clear United States commitment, but where the United 
States has interests. In Europe, this means countries that are not 
members of NATO (as NATO members do have an explicit security 
commitment from the United States). This, of course, includes Ukraine.
    Another definition for gray zone refers to operations, specifically 
those that are more difficult to define as either peace or war, and 
indeed possibly those undertaken intentionally to obfuscate and blur 
the lines between the two. Of course, those lines have always been 
blurry. Carl von Clausewitz wrote that war is an extension of politics; 
he did not mean that politics ends when war begins, or that there is a 
stark divide between the two. Rather, military, political, economic, 
and diplomatic instruments should all be expected to be used to attain 
national goals, together and separately. Armed conflict then, is, 
definitionally enough, characterized by the use of armaments in a 
conflict, almost certainly alongside other tools.
    In the context of Russian operations in Ukraine, we are interested 
today in two kinds of activities. Influence operations, which seek to 
leverage media and propaganda efforts as well as business and political 
ties to attain national goals are, if not always aboveboard, surely 
short of armed conflict. They thus may be in the gray zone from a 
geographical perspective, but are not from an operational perspective. 
This said, such actions, even when undertaken in countries that are not 
in the ``gray zone,'' may still be of strategic interest. 
Unconventional warfare, if it is unquestionably armed action by 
military personnel, is of course armed conflict. If, however, it is 
characterized by subterfuge and actions by those who cannot be clearly 
identified as combatants, it may be in the operational gray zone as 
well (it is also, in its own way, an influence operation, in that it 
seeks to affect the calculus of other parties). In Ukraine, we see all 
of these to varying degrees, with a range of implications for other 
parts of Europe and the rest of the world.
                    influence operations in ukraine
    As I alluded to above, I see two types of non-military influence 
operations that have been and continue to be used by the Russian 
Federation in Ukraine and elsewhere. The first is public information 
campaigns and propaganda--efforts to target a broad population with 
press stories, social media tools, and so forth. The second is building 
up and leveraging business and political relationships. This includes 
support to political activists and parties, and efforts to develop 
business ``lobbies'' that will support Russian goals.
    I start with the first of these. In Ukraine, Russian-language 
print, internet, and television media had fairly heavy saturation prior 
to 2014, particularly in Crimea and in the East. Their narrative, aimed 
at both Russians and Ukrainians, was meant to convince audiences that 
EU association would lead to political chaos, widespread homosexuality, 
and economic collapse. Social media activism amplified these messages, 
particularly on Russian-language websites. As the crisis unfolded, the 
coverage denigrated the protesters on Ukraine's Maidan Nezalezhnosti 
(Independence Square) who called for the ouster of then-President 
Yanukovych; the government that took control after Yanukovych fled; 
Western governments, which were depicted as orchestrating this 
``fascist coup;'' and eventually the elected government of new 
President Petro Poroshenko. Social media disseminated both intercepted 
and apparently doctored recordings of Western officials discussing the 
situation in Ukraine, with the intent to both embarrass and to suggest 
a Western hand behind Kyiv's emerging government. The narrative 
emphasized unrest in Kyiv and elsewhere and reported that fascist gangs 
were roaming the capital city's streets. Another thread sought to 
instill and play on fear among Russian-speaking Ukrainians that they 
would be persecuted by the new government (this was admittedly helped 
along by some of the rhetoric in Kyiv, including an ill-considered, and 
quickly reversed, effort to require the use of Russian in official 
transactions when other languages had previously been allowed).
    What did this do? I would argue that it likely did make some people 
even more nervous than they had been before. But the extent to which 
Russian media coverage contributed to protests and unrest in both 
Crimea and Eastern Ukraine is difficult to judge. These campaigns were 
surely most successful with populations that were already inclined to 
believe them--people who were nervous about EU association, distrustful 
of the West, and, once a new government took shape in Kyiv, fearful of 
what this might mean. In Crimea, where a large part of the self-
identified ethnic Russian majority is comprised by retired Russian 
military personnel and their families, and where the Russian Black Sea 
Fleet continued to be based after the collapse of the USSR, this was a 
substantial proportion of the population. In Eastern Ukraine, where 
Yanukovych had his base of support, this message also resonated. But if 
information operations of this sort helped bring people into the 
streets, they cannot be credited with Russia's annexation of Crimea. 
This, while almost bloodless, was a military action made possible in 
large part by Russia's pre-existing preponderance of force on the 
peninsula.
    Similarly, while Russian propaganda may well have played a role in 
public dissatisfaction, to truly get a conflict going in Eastern 
Ukraine took more than that. As the protests grew, there was increasing 
evidence that while some of the protesters were local, Russians crossed 
the border to join in as well. When fighting flared, Russian supplies 
of armaments (and, it soon became clear, advisers and troops) were what 
kept it viable in the face of Ukrainian response. Today, Russian 
efforts to propagandize to Ukrainian populations in the East are 
blocked and countered, to the extent possible, by the Ukrainian 
government. However, the best defense against false narratives at this 
point is surely the stream of displaced persons from the separatist-
controlled territories, the experience of continued fighting for those 
near the front lines, and other first-and second-hand knowledge of the 
realities of the situation.
    Influence engendered by economic and political ties presents a 
different dynamic. Ukraine's and Russia's economies were deeply 
intertwined since the collapse of the USSR. This involved both legal, 
above-board activity and a variety of corrupt contacts and ties, 
including with the Yanukovych regime and its supporters. Ukraine's East 
and South were particularly closely tied to Russia, with highly 
interdependent economies. To the extent that these ties and exchanges 
were corrupt, they, along with other forms of corruption, made it 
highly unlikely that their beneficiaries would support EU association, 
with its requirements of greater transparency and a more open business 
climate as a whole. Today, it is plausible to argue that some 
continuing ties with Russia, many of them increasingly secretive, may 
be part of what is hampering reform efforts and thus undermining 
Ukraine's future. But the broad range of economic relationships, most 
of them completely legal, also created concerns among the many 
Ukrainians whose livelihoods were genuinely less certain if ties with 
Russia waned, something that surely exacerbated their other fears.
             unconventional military operations in ukraine
    The line between conventional and unconventional military 
operations is not always a clear one. Among unconventional operations 
are counterinsurgency and insurgency missions, the use of specialized 
forces, electronic warfare and cyber campaigns, and such things as the 
use and backing of foreign government and non-government forces as 
proxies. All of this is present in most conflicts, to varying extents. 
Because of our focus on the ``gray zone,'' we are most interested here 
in areas that appear to be, genuinely or arguably, short of actual 
international armed conflict.
    In the case of Russian operations in Ukraine, perhaps the most 
touted example is the insertion of additional Russian forces into 
Crimea in late February 2014. \1\ Wearing uniforms without insignia, 
these personnel, termed ``little green men'' in the Ukrainian and 
Western press and ``polite people'' by Russia, took an active part in 
events on the peninsula, including seizing the Parliament building and 
surrounding the Belbek air base. Russian military personnel also 
pretended to be Ukrainian military and police and worked with local 
``self-defense'' units. Their ack of uniform markings contributed to 
confusion, even as Russia denied the deployment of additional forces to 
Crimea.
---------------------------------------------------------------------------
    \1\ Russia of course had a sizable pre-existing military presence 
on the peninsula, in the form of its Black Sea Fleet.
---------------------------------------------------------------------------
    Russia has also denied its support for the separatists fighting the 
Ukrainian Army in Eastern and Southern Ukraine, as well as the 
insertion of its regular army troops into that fight as both advisors 
and active troops. Here, too, we see examples of Russian forces 
masquerading as locals. We also, of course, see the support and 
development of a proxy force. As with the ``little green men'' in 
Crimea, this feeds confusion and allows for deniability. The actual 
fighting in Eastern Ukraine, however, is highly conventional, tending 
towards a great deal of artillery and some trench warfare.
    Finally, it is important to note the use of cyber in the Ukraine 
conflict. Early in the conflict, these took the form of distributed 
denial of service (DDOS) and defacement attacks on Ukrainian government 
and NATO websites. This was more a form of harassment, however, than 
anything else. More debilitating was a December 2015 attack on 
Ukraine's power grid, which shut down electricity to hundreds of 
thousands of people for several hours. Both Ukrainian and United States 
officials blamed Moscow. If this was, indeed, an orchestrated attack by 
Russia, it is an example of precisely the type of cyber operation that 
could be seen as warfare, in that it approximates effects similar to 
those that might be attained through the use of armed force.
                      russian activities elsewhere
    In assessing Russian activities outside of Ukraine, I focus on 
influence operations. In the military context, the only current example 
of Russian operations outside of Ukraine is Syria, where the most 
unconventional aspect is Russian support of proxy forces, which the 
United States and its allies are also engaged in. As noted above, 
influence operations against the United States and its NATO allies 
cannot really be termed ``gray zone'' operations, because they fit 
neither the geographical nor operational definition of the term. 
However, the growing concern about these activities requires us to pay 
attention to them as what they are--political influence operations 
undertaken with hostile intent, in this case, efforts to undermine and 
subvert Western unity and trust in existing governments and 
institutions.
    Russian influence campaigns outside of Ukraine share some 
similarities with its activities within that country. In terms of media 
and social media efforts, one aspect of this is Russian-language media 
targeting Russian populations around the world, and particularly in 
neighboring countries, where it is often popular. In addition, much 
attention has been paid in recent years to, on the one hand, Russian 
government-supported outlets around the world, such as RT and Sputnik, 
which are heavily advertised and, by broadcasting and publishing in 
English and other languages, able to reach a wide population around the 
world. While these outlets do consistently report Russian government 
positions, they are probably more effective when they raise questions 
about the reporting of other sources, and of other government 
statements and views--such as by denying Russian military presence in 
Ukraine. They also tend to highlight what they portray as the hypocrisy 
of non-Russian governments, for instance by highlighting collateral 
damage caused by United States and NATO military actions abroad.
    Also notable is the Kremlin's use of social media outlets. This was 
also evident in Ukraine, and is utilized much the same way around the 
world, in a range of languages. Researchers have unearthed so-called 
``troll farms'' that rely on human-and machine-run social media 
accounts to amplify Kremlin messages and raise doubts about other 
viewpoints. This, like the direct media campaigns, tends to combine 
elements of truth and falsehood, building trust among like-minded 
people on a range of issues in order to heighten tension and 
frustration and perhaps further expand influence on other issues.
    While we can establish the presence of a sizeable Russian effort in 
this regard, this begs the most important question: does any of this 
work? Happily, there is no evidence to date that these messages are 
reaching audiences previously unfavorable to them and changing minds. 
In Ukraine, Russian media messages were most effective with those 
predisposed to trust them. The same is true of both Russian and 
foreign-language media and social media efforts elsewhere in the world. 
I would argue that the real threat posed by these phenomena is not 
their independent effect, but the fact that they are just one sliver of 
a much larger increase in chaos and untruth in the information space. 
The widespread use of these same techniques of smears, blatant lies, 
and uncorroborated reporting amplified by like-minded social media 
users (paid, robotic, and genuine) create an environment in which it 
is, indeed, difficult to tell truth from falsehood. The resulting 
environment is not so much one in which more people trust Russian 
sources, but in which people only trust whatever sources they prefer, 
and discount all others. This is dangerous, and Russia is exploiting 
the situation, but it is far from a uniquely, or predominantly, Russian 
threat.
    Russian economic influence in Europe and elsewhere is a mixed bag. 
It is true that there are pro-Russian politicians in Europe, and that 
some of them have ties to Russian business. But it can be hard to 
figure out which of these came first. For instance, when Hungary's 
Prime Minister Viktor Orban supports collaboration with Russian firms, 
is this because he seeks closer relations with Moscow (which he does) 
or does he seek closer relations with Moscow because of the economic 
gains that would accrue? In the United States, firms that had business 
in Russia have been more skeptical of sanctions; this plays out 
similarly in Europe. France's Republican Party also supports a better 
relationship with Russia, no doubt in part because it has constituents 
in industries such as defense, energy, luxury goods, transportation, 
and banking, all of which stand to gain from more trade with Russia. 
Many years of solid economic ties between Russia and Germany lead some 
German parties to also desire better relations with Moscow. The fact is 
that most of the economic ties that exist are surely above-board, the 
product of years of seeking to integrate Russia into the global 
economy. Moreover, the requirements of operating in the West force 
Russian companies to adopt higher standards for transparency, which may 
have positive longer-term effects. Thus, while any Kremlin efforts to 
leverage economic ties for political gain should be monitored, this 
does not mean that business with Russian firms and individuals should 
be demonized.
    A greater concern may be Russia's support for fringe parties in 
Europe. Bela Kovacs, who helped finance Hungary's pro-Russian 
ultranationalist Jobbik party, may have used Russian funds to do so. He 
is now under investigation for spying for Russia. Not a few have 
noticed the 2014 and 2016 loans from the First Czech Russian Bank to 
France's far right National Front Party--to say nothing of party leader 
Marine Le Pen's friendly relationship with Vladimir Putin. Late in 
2016, Austria's far-right Freedom Party inked a cooperation deal with 
the United Russia Party. There is no doubt that leaders and members of 
right wing and nationalist parties throughout the West see Russia as a 
model. It is equally clear that the Kremlin sees support for these 
political groups, which tend to be anti-EU and sometimes anti-NATO as 
well, as a means of weakening Western unity. It may be particularly 
emboldened by seeming recent successes. Interestingly, the Kremlin is 
increasingly wary of its own right wing nationalists, and has been 
cracking down on them.
    In the United States, of course, our intelligence agencies have 
judged that Russia released information obtained through cyberhacks of 
American organizations, including political party organizations, in 
order to influence our Presidential election last year. There is 
nothing particularly unusual about using cyber tools to collect 
intelligence. It is unusual, and crosses any number of lines, to then 
take action to use such information to interfere in another country's 
political processes. It is likely that Russia's expectations of 
influence were that they could, in this way, disrupt the United States 
election, contributing to confusion and raising questions about 
legitimacy. If they believe that this has been a success, and even more 
so if they judge that they had a hand in the outcome (something I do 
not believe to be the case), they may be emboldened to undertake 
similar actions in the future, vis-a-vis the United States and other 
countries. We have certainly heard rumors that such efforts are 
underway in the context of Germany's election, upcoming in September of 
this year. Again, particularly in concert with Russian support of right 
wing parties in Europe, this should be watched carefully. However, I 
would underline that Russian efforts at best exploit weaknesses already 
in place. It seems highly unlikely that they can be decisive under 
current conditions.
                     russian doctrine and thinking
    Before turning to the lessons we might draw from all of this, it is 
worth stopping to ask how Russian military and security analysts view 
the situation. While much recent Russian analysis of modern-day 
conflict and warfare highlights the broad range of mechanisms that can 
advance political goals, Russian analysts tend to present these not as 
approaches Russia can use, but rather as tools that are being developed 
by the West against Russia, which Russia must learn to counter. This 
was evident in Russia's most recent military doctrine, released in late 
2014, \2\ and in a variety of analysis and writing produced since. Even 
Russian discussions of so-called ``hybrid'' conflict, a term that they 
have picked up from Western authors, ignore the fact that those 
analysts use the term almost exclusively to describe Russian political 
and military action. Russians, by contrast, use it to describe a range 
of Western activity, from economic sanctions to support of ``color 
revolutions,'' all geared to weaken and overthrow governments abroad. 
Moreover, they assume a substantial Western advantage in these areas. 
\3\ This was the nature of the much touted 2013 piece by Russian 
General Staff Chief Valery Gerasimov, which was, in the aftermath of 
Crimea, read by many in the West as presenting a new Russian approach 
to warfare. In fact, the text described a Russian view of Western 
approaches. \4\
---------------------------------------------------------------------------
    \2\ Vladimir Putin, ``The Military Doctrine of the Russian 
Federation,'' December 25, 2014. English language version available at 
http://rusemb.org.uk/press/2029 (accessed March 27, 2017)
    \3\ Ibid. See also Samuel Charap, ``The Ghost of Hybrid War.'' 
Survival (00396338) 57, no. 6 (December 2015): 51-58. For more recent 
examples, see Valerii' Gerasimov, ``Mir Na Graniakh Voiny,'' March 15, 
2017; S. G. Chekinov and S. A. Bogdanov, ``E'voliutsiia Sushchnosti I 
Soderzhaniia Poniatiia `voi'na' v XXI Stoletii,'' January 2017; V. A. 
Kiselev, ``K Kakim Voi'nam Neobkhodimo Gotovit' Vooruzhennye Sily 
Rossii,'' March 2017.
    \4\ Valerii' Gerasimov, ``Tsennost' Nauki V Predvidenii,'' February 
27, 2013; Charap, ``The Ghost of Hybrid War''; Charles K. Bartles, 
``Getting Gerasimov Right,'' Military Review 96, no. 1 (February 1, 
2016): 30-38.
---------------------------------------------------------------------------
    Despite these concerns, Russian writing on the future of war 
continues also to emphasize the importance of conventional warfare, 
with particular emphasis on air power and advanced technologies. The 
most recent piece by Gerasimov, published just a few weeks ago, argues 
strongly that for all the new and creative ways Western countries are 
seeking to subvert Russia, conventional capabilities are at the core of 
what the country should itself emphasize. \5\
---------------------------------------------------------------------------
    \5\ Gerasimov, ``Mir Na Graniakh Voiny.''
---------------------------------------------------------------------------
         what we should be learning from ukraine and elsewhere
    There is no question that Russia is undertaking action across the 
spectrum of political, diplomatic, and military power. However, I warn 
against viewing Russian approaches as a well thought out strategy 
undertaken throughout the world. As is evidenced by Russian writing on 
these topics, Russia is testing approaches, experimenting, and trying 
to build on successes. Thus, one of the most important lessons from 
Russian actions in Ukraine and elsewhere in the world is that Russia is 
learning lessons from its own operations. It is carefully studying what 
works and what doesn't, and trying to assess how to adapt techniques 
for other purposes. Take the example of Crimea and East Ukraine. The 
Crimea operation was extremely successful. At least partly on its 
basis, Russian planners thought that something similar could succeed in 
Eastern Ukraine, and perhaps Ukraine as a whole. They were quickly 
proven wrong, and they recalibrated their goals and their tactics 
accordingly.
    This is one of the many reasons that I do not think that a Crimea-
like scenario is what we should be worrying about in, for example, 
Estonia or elsewhere in the Baltics. Russia's ability to use military 
personnel without insignia while denying their presence was specific to 
the Ukrainian situation, and not, in the end, decisive in the success 
or failure of Russian efforts. These and other Russian tactics of 
supporting separatist attacks on government buildings, backed by 
propaganda and influence operations, worked best where there was large-
scale military presence and the population was confused and generally 
sympathetic--that is to say, in Crimea. It worked far less well where 
the population was more skeptical as in Eastern Ukraine, and such 
approaches proved completely ineffective where Russia did not have much 
influence, for instance in Odessa. Not only is there excellent reason 
to think that the population of Narva, in Estonia, has more in common 
with Odessa than Donetsk, much less Sevastopol, but authorities are at 
this point hyper-aware of this particular threat, and the Russians know 
that. Should Russia have designs on the Baltics, they may try many 
things, but I would be surprised if the operation looked much like 
Ukraine.
    One question I am asking myself today is whether there is a Crimea 
equivalent in the influence operations space. Is there a point at which 
Russia feels that it has hit upon a successful tactic and it 
overreaches? I believe that its efforts to affect election campaigns 
may play just that role. But Russia's limitations in its efforts to 
weaken existing institutions depend tremendously on the strength of 
those institutions. Russian tools exploit weaknesses. The challenge, 
then, is to eliminate, or at least mitigate, those weaknesses. Thank 
you and I look forward to your questions.

    Senator Ernst. Thank you very much, Dr. Oliker.
    Dr. Carpenter?

   STATEMENT OF MICHAEL R. CARPENTER, SENIOR DIRECTOR, BIDEN 
   CENTER FOR DIPLOMACY AND GLOBAL ENGAGEMENT, UNIVERSITY OF 
                          PENNSYLVANIA

    Dr. Carpenter. Chairman Ernst, Ranking Member Heinrich, 
members of the subcommittee, thank you for this opportunity to 
speak about the lessons learned from Russia's influence 
operations in Ukraine.
    Russia's unconventional war in Ukraine has demonstrated a 
formidable toolkit of measures for fighting in the gray zone 
from world-class cyber and electronic warfare capabilities to 
sophisticated covert action and disinformation campaigns. 
Russia has used propaganda, sabotage, assassination, bribery, 
proxy fronts, and false-flag operations to supplement its 
considerable conventional forces in eastern Ukraine.
    Moscow has been doing its homework. Recognizing its 
conventional capabilities lag behind NATO's, Russia has been 
investing in asymmetric capabilities to gain advantage over 
conventionally superior Western militaries. At the same time, 
Moscow has dispensed with its longstanding foreign policy of 
cooperating with the West where possible and competing where 
necessary and now seeks to actively undermine the transatlantic 
alliance and delegitimize the international order through a 
continuous and sustained competition short of conflict.
    But even with Russia's well-honed unconventional 
capabilities, the United States and its NATO allies can prevail 
in this competition if we recognize the Kremlin's goals for 
what they are, develop smart strategies to counter them, 
properly align our institutional structures, and invest in the 
right capabilities.
    Today, I would like to briefly highlight six areas where 
the United States must counter Russia's new generation warfare. 
First is information warfare. In eastern Ukraine and Russia, 
the Kremlin has used its monopoly on broadcast television in 
particular to spread false narratives. For example, as Olga 
mentioned, that fascists control the government in Kyiv. Here 
in the United States, these lies are easily debunked, but we 
should not underestimate how even here Russian trolls and bots 
can spam us with propaganda and thereby shift the media's focus 
from one story to another.
    I believe an independent commission should be established 
to identify and take action against Russian misinformation in 
addition to resourcing a more robust interagency body. Frankly, 
we should also go beyond debunking lies in the Western media 
space and take a much more active role in exposing corruption 
and repression inside Russia.
    Second, we urgently need to upgrade our cyber defenses and 
those of our allies and partners. Regulatory oversight should 
be strengthened to ensure that private corporations that manage 
much of our critical infrastructure are taking the necessary 
steps to harden defenses. I also support the establishment of a 
national cyber academy and expanding the Pentagon's public-
private partnerships with the IT [information technology] 
sector.
    In cases where the United States is able to attribute a 
specific attack, our response must be firm, timely, and 
proportionate. The [persona non grata] PNG-ing of Russian 
officials in response to Russia's cyber attack is unfortunately 
just a symbolic act with very few real consequences. Until our 
adversaries learn that the cost of such actions outweigh the 
consequences, they will keep probing.
    Third, we must get better in exposing Russia's covert 
operations. In addition to its little green men, as Olga 
referred to, Russia also deployed what SNMs call little gray 
men who organize demonstrations and seize government buildings 
across eastern Ukraine in the spring of 2014. The lesson we 
learn here is that once these forces were outed in Ukraine, 
strong social resilience and effective local law enforcement 
succeeded in thwarting most efforts to foment insurgency. Where 
Russia's efforts succeeded in Ukraine it was largely because 
they were backed by coercion and more overt military force, a 
point you made as well.
    Fourth, Russia relies on a range of proxy groups to carry 
out subversive actions. However, Moscow's greatest success with 
proxy forces has not been on the battlefield but rather on the 
diplomatic stage. One of the biggest mistakes made by Western 
leaders of the so-called Normandy Group was to elevate the role 
of Russian proxies in the February 2015 Minsk Agreement. The 
result today is a kabuki negotiation in which Russia's proxies 
stonewall any meaningful progress on implementing Minsk, and 
Russia largely avoids blame.
    Fifth, sabotage and terrorism have been used to great 
effect in the Ukraine conflict. A week ago today, former Duma 
member Denis Voronenkov was assassinated in central Kyiv on the 
same day as an act of sabotage destroyed a munitions depot. As 
with proxies, preventing terrorism and sabotage depends on good 
intelligence and strong social resilience. Ukraine has in fact 
averted many terrorist incidents over the last three years 
thanks to tipoffs from vigilant citizens and good law 
enforcement work.
    Sixth, Russia has dramatically ramped up its political 
influence operations not just in Ukraine but throughout Europe 
and the United States. To counteract Russian influence 
operations, we need more transparency in political party 
financing, more effective anticorruption tools, better sharing 
of information on financial crimes, and stronger law 
enforcement to root out entrenched and corrosive Russian 
patronage networks.
    I believe the United States should establish a standing 
interagency operational body dedicated solely to interdicting 
Russian influence operations. Most importantly, however, it is 
absolutely vital that an independent special prosecutor be 
appointed in the United States to investigate allegations of 
ties between the Russian Government and United States political 
actors during the last election cycle. This is the one Russian 
influence operation that most directly affects our national 
security, and to protect the integrity of our democratic 
institutions, we simply must follow the evidence where it 
leads, free from political influence.
    Finally, if I may be permitted to say a few words on how 
the United States should push back on Russia's unconventional 
war in Ukraine itself, I believe we should start by expanding 
our military training programs and by providing Ukraine with 
much-needed defensive weapons. On the diplomatic front, the 
United States must stop outsourcing the negotiations to France 
and Germany and get directly involved to help the parties 
develop a roadmap for implementing the Minsk Agreement. This 
roadmap must specify dates by which actions must be completed 
and consequences for failing to meet these deadlines.
    To sharpen United States leverage, we should consider 
unilaterally tightening financial sanctions if Russia fails to 
meet these benchmarks. Lastly, the United States needs to 
continue to support Ukraine's reforms in part by applying 
strict conditionality to United States assistance but also by 
encouraging our European partners to play a much more active 
role than they have today.
    Chairman Ernst, Ranking Member Heinrich, subcommittee 
members, Russia's operations in the gray zone have not only 
grown bolder in the last decade, but they have expanded from 
states on Russia's periphery like Georgia and Ukraine to Europe 
and even to the United States. Our responses at home and abroad 
must demonstrate the seriousness and urgency that these threats 
demand. Thank you, and I look forward to taking your questions.
    [The prepared statement of Dr. Carpenter follows:]

              Prepared Statement by Dr. Michael Carpenter
    Note: The statements, views, and policy recommendations expressed 
in this testimony reflect the opinions of the author alone, and do not 
necessarily reflect the positions of the Biden Center for Diplomacy and 
Global Engagement or the University of Pennsylvania.
    Chairman Ernst, Ranking Member Heinrich, members of the 
Subcommittee on Emerging Threats and Capabilities, thank you for the 
opportunity to speak about the lessons learned from Russian influence 
operations in Ukraine.
    Russia's unconventional war against Ukraine has revealed a 
formidable toolkit of measures for fighting in the so-called ``gray 
zone,'' from world-class cyber and electronic warfare capabilities to 
sophisticated covert action and disinformation operations. Russia has 
used propaganda, sabotage, assassination, bribery, proxy fronts, and 
false-flag operations to supplement its considerable conventional force 
posture in eastern Ukraine, where several thousand Russian military 
intelligence advisors, unit commanders, and flag officers exercise 
command and control over a separatist force consisting of roughly 
30,000-40,000 troops.
    Moscow has been doing its homework. Recognizing that Russia's 
conventional military capabilities lag behind those of NATO, Russian 
Chief of the General Staff Valeriy Gerasimov called in 2013 for 
investing in asymmetric capabilities to enable Russia to fight and win 
against conventionally superior Western militaries. Gerasimov's call 
for more emphasis on unconventional warfare also coincided with a 
subtle but important shift in Russian foreign policy. After Mr. Putin's 
return to the Kremlin in 2012, Moscow dispensed with its post-Cold War 
foreign policy of cooperating with the West where possible and 
competing where necessary. Instead, the Kremlin now actively seeks to 
corrode the institutions of Western democracy, undermine the 
transatlantic alliance, and delegitimize the liberal international 
order through a continuous and sustained competition short of conflict 
that takes place across all domains.
    However, even with Russia's well-honed unconventional warfare 
capabilities, the United States and its NATO Allies can prevail in this 
competition if we recognize the Kremlin's goals for what they are, 
develop smart strategies to counter them, properly align our 
institutional structures, and invest in the right capabilities.
    I will briefly discuss six areas where Russia has invested in 
significant unconventional or ``new generation warfare'' capabilities, 
and suggest some responses the United States should consider. All of 
the capabilities I will highlight were used during Russia's invasion of 
Ukraine in 2014 and remain on display as Russia continues to wage its 
unconventional war against the government in Kyiv.
                          information warfare
    First, Russia has demonstrated a mastery of the tools of 
information warfare. Russia's intelligence services understood through 
their ``operational preparation of the environment'' (OPE) how to 
tailor messages that would resonate with the population of eastern 
Ukraine. Such efforts began long before the Maidan protests as networks 
of influence were established across virtually all of Ukraine's 
government and military institutions, allowing for rapid activation 
once the conflict began. Immediately after President Yanukovych's 
ouster, Russian media outlets and government officials began to 
disseminate a narrative that Yanukovych had been forced out of power by 
Ukrainian fascists supported by the West. This propaganda was so 
insidious that even an 86-year-old Ukrainian-American living in the 
United States whose sole source of news is Russian TV could believe 
that a fascist government had come to power in Kyiv.
    It is not just the message that matters, but also Russia's virtual 
monopoly of the medium. To guarantee its control of information, one of 
the first operations Russian special services carried out inside 
Ukraine in the spring of 2014 was to seize key television transmission 
towers. This monopoly on broadcast television lasted until only 
recently. In December 2016, Ukraine inaugurated a new television tower 
near Slovyansk to broadcast its own public programming into occupied 
eastern Ukraine, while Ukrainian public radio only began broadcasting 
into the Donbas in January 2017.
    To counteract Russian propaganda, the United States needs to take a 
more pro-active approach.
    United States European Command led the way during the Ukraine 
crisis by revealing de-classified images of Russian tanks and 
equipment, and NGOs [Non-Government Organizations] like Bellingcat 
followed suit with further proof of Russia's involvement, including 
evidence of Russia's role in the shoot-down of MH-17. However, more is 
needed beyond simply publicizing evidence of Russian aggression. The 
United States should consider making greater use of regulatory tools to 
label Russian propaganda for what it is, for example by mandating a 
screen banner warning viewers of RT [Russia Today] or Sputnik that they 
are watching Russian government programming. An independent commission 
should also be established to identify and take action against Russian 
misinformation. In parallel, the 2016 Countering Disinformation and 
Propaganda Act should be used to spur the development of a robust 
whole-of-government toolbox for exposing and countering Russian 
propaganda, ideally drawing on expertise outside of government.
    Counter-disinformation strategies will also be more effective when 
coordinated across the NATO Alliance, particularly since Russian 
disinformation has found fertile ground in many European societies. 
Expanding the funding and mandate of the NATO Center of Excellence on 
Strategic Communications in Latvia would help share best practices on 
counter-messaging. The Center should also explore how to use big data 
analytics and other social media tools to counteract Russia's well-
financed army of internet bots and trolls. For example, technological 
solutions should be explored, including ``spam filters'' for content 
generated by programmed bots.
    Finally, the United States should not limit itself to refuting lies 
in the Western media space but should take a more active role in 
exposing lies and corruption within Russia. Those who claim Russian 
citizens are inured to revelations of high-level corruption or Russian 
military involvement in the war on Ukraine do not understand what the 
Kremlin knows well. Russian opposition politician Boris Nemtsov was 
murdered only a few hundred yards from the Kremlin in part because he 
had revealed information about the Russian military's direct 
involvement in the war in Ukraine. Exiled Duma lawmaker Denis 
Voronenkov was murdered last week in Kyiv because he was ready to speak 
about Russia's ties to Yanukovych and the war in Ukraine. The Russian 
NGO Soldiers' Mothers was declared an ``undesirable foreign agent'' by 
the Russian government after its members exposed the cover-up of 
Russian service-members' deaths in Ukraine. Clearly, the Kremlin does 
not want this information to be disseminated within Russia and is 
willing to go to extreme lengths to silence these voices. Protests 
across Russia just within the last few days also provide ample proof 
that Russian citizens do not accept corruption as a way of life.
    To speak directly to Russian citizens and Russian speakers, the 
United States should devote more resources to projects like Current 
Time, the Broadcasting Board of Governors' new 24/7 Russian-language 
digital network, which provides information to Russians and Russian-
speaking audiences on Russia's periphery. The United States should also 
consider supporting efforts like Estonia's Russian-language public 
television station, which has filled an important vacuum in the Baltic 
region's information space.
                            cyber operations
    A second unconventional tool Russia is using to great effect in 
Ukraine is cyber-attacks, which range from ``hacking'' Ukrainian 
networks to steal information for intelligence or propaganda purposes 
to crippling denial of service attacks on critical infrastructure. At 
the start of the conflict, the deployment of Russian special forces to 
Crimea was accompanied by cyber-attacks on cellular and internet 
connections to disrupt the government's ability communicate with its 
citizens. Similar operations were launched in Georgia during Russia's 
invasion in August 2008. Cyber operations were also augmented by the 
use of electronic warfare equipment to block cellular and radio signals 
used by the Ukrainian Armed Forces as well as civilians.
    Cyber-attacks against Ukraine have escalated since the conflict 
began. In December 2015, evidence shows Russia hacked into the 
Supervisory Control and Data Acquisition (SCADA) networks of two 
Ukrainian energy companies, shutting off electricity and heat for a 
brief period before Ukraine was able to restore power. The attacks on 
the SCADA systems were accompanied by distributed denial of service 
(DDOS) attacks on telephone-operated customer call centers so 
complaints of a power outage would not get through to company 
operators. However, even when Russia was identified as the perpetrator 
of this attack, it was not deterred. In December 2016, Ukraine's power 
grid suffered another cyber-attack, and Russian cyber actors separately 
targeted Ukraine's payments system for government salaries and 
pensions. These attacks should serve as a wake-up call for the West, 
particularly since many Western power companies lack the backup manual 
functionality that helped Ukraine avert what could have otherwise been 
a crippling power shutoff. The potential for disruptive cyber action is 
enormous and deterrence is complicated by the difficulty of 
attribution. While recent discussions of Russia's cyber-attacks in the 
United States have focused on hacking and disclosure of information, we 
must not overlook the fact that Russia's cyber weapons have a potential 
lethality and scope that is matched only by strategic nuclear weapons.
    The Defense Department must therefore invest more in United States 
Cyber Command's capabilities, and the United States should also 
continue to help build our Allies' and partners' cyber-defenses, which 
in many cases are more vulnerable than our own. Election-day attacks in 
Montenegro in October 2016 not only spread disinformation about the 
election on social media platforms such as Viber and WhatsApp, but also 
targeted the Ministry of Defense's network. At a December meeting of 
the United States-Adriatic Charter, defense ministers from across the 
Balkans noted their cyber defenses needed to be urgently upgraded in 
the face of increased Russian cyber activity.
    United States-based efforts should also include stronger regulatory 
oversight to ensure standards are met for hardening critical 
infrastructure against cyber intrusions and attacks since much of this 
effort is currently left at the discretion of the private corporations 
that manage this infrastructure. Admiral Stavridis' suggestion to 
establish a National Cyber Academy is also worth considering, and the 
Defense Department's public-private partnerships with the information 
technology sector, like the Defense Innovation Unit Experimental (DIUx) 
launched by former Secretary of Defense Carter, should be expanded.
    Finally, in cases where NATO or the United States are able to 
attribute a specific attack, the response must be timely and 
proportionate to deter future attacks. In the case of the cyber-attack 
against the United States during the presidential election, the 
declaration of Russian intelligence officials as persona non grata 
(PNG) is unfortunately a largely symbolic action with few lasting 
consequences given that these positions will soon be backfilled with 
other operatives. As long as Russian cyber actors encounter weak 
resistance, the Kremlin will continue to leverage its cyber 
capabilities against the West.
                   clandestine and covert operations
    Third, Russia's intervention in Ukraine demonstrates a mastery of 
the art of clandestine and covert operations. During its armed takeover 
of government buildings and military installations in Crimea in 2014, 
Russia deliberately chose to deploy what are now known as ``little 
green men,'' or special forces in uniforms without insignias. The 
deployment of these semi-overt, semi-covert forces allowed Russia to 
maintain the fiction on the international stage that the conflict 
involved only local actors. At the same time, it made perfectly clear 
to those on the ground that the troops were in fact highly capable 
Russian special forces. Through this ``asymmetric ambiguity'' Russia 
was able to stave off the international community's immediate 
condemnation while simultaneously deterring Ukraine's interim 
government from fighting back. In essence, the Russian General Staff 
set the same trap it used in Georgia in 2008 when it covertly deploy 
special forces to create unrest: if the host government fights back and 
there are casualties, then the Kremlin is handed a pretext for 
launching a war to protect Russian compatriots; if the host government 
chooses not to fight, Russian forces have a free hand. In either case, 
Russia wins.
    In addition to its semi-overt ``little green men,'' Russia also 
deployed true covert operators to the Donbas. These ``little gray men'' 
organized and sometimes even led demonstrations and seizures of 
government buildings and police stations across eastern Ukraine in the 
spring of 2014. In April 2014, for example, Russian covert actors 
organized the seizure of the Kharkiv Opera House, which they mistakenly 
believed was City Hall, using paid protestors who had been bussed in 
from outside the city. A deadlier and more tragic incident occurred in 
May 2014 when pro-Kremlin protestors barricaded themselves inside a 
building in the port city of Odessa, which was then set on fire.
    Importantly, Russia's covert agents were far less successful in 
stoking separatist sentiments in other parts of southern and eastern 
Ukraine than they were in Crimea. Thanks to the social resilience of 
the local population and more effective local law enforcement 
operations, Russian-directed efforts to foment anti-government 
insurgencies failed in major cities like Kharkiv, Odessa, Dnipro, and 
Mariupol. Russia's recent attempted coup d'etat in Montenegro is also 
illustrative of how effective collaboration between intelligence and 
law enforcement agencies can thwart such covert operations. In the 
Montenegrin case, Russian military intelligence officers recruited 
mercenaries among far-right nationalist groups in Serbia and local 
criminal elements and hatched a plan for them to fire on anti-
government protestors on election day while wearing stolen Montenegrin 
police uniforms. Fortunately, a tip-off and good intelligence work 
prevented the plot from moving forward as planned.
    More broadly, defeating or neutralizing influence operations 
requires strengthening societal resilience through government programs 
that build stronger ties to disaffected ethnic groups or communities 
that are less well integrated into a country's social fabric. This 
requires a ``wholeof-government'' approach that coordinates among 
ministries of defense, internal affairs, and intelligence bodies, as 
well as health, social, and economic agencies. Finally, awareness of 
the threat is critical. In the Ukrainian case, Russia's operation in 
Crimea was successful in part (though there were other reasons) because 
it occurred first. Once Ukrainian citizens became aware that Russian 
forces were intervening militarily in their country, subsequent 
operations proved much more difficult even in areas where there were 
historically high levels of distrust in the central government. Within 
NATO it is vital for the Alliance to develop Indicators and Warnings 
(I&W) that rely not only on military factors, but also on social trends 
and dynamics.
                              proxy forces
    Fourth, Russia relies on a range of proxy groups to carry out 
subversive actions and fight as irregular forces. In Ukraine, these 
groups include local organized criminal groups, Yanukovychregime thugs 
known as tytushki, former Berkut riot police, Cossacks and Chechen 
fighters who came from Russia, members of the infamous Russian ``Night 
Wolves'' motorcycle gang, and a smattering of Russian and East European 
neo-Nazi volunteers. This medley of proxy groups proved to be little 
match initially for Ukraine's conventional military in the summer of 
2014, during which Ukrainian forces succeeded in retaking significant 
territory. However, when it appeared that Ukraine might actually defeat 
the separatist forces, Russia intervened with a large number of 
conventional brigade combat teams that were ready and waiting in 
staging areas near the Ukrainian border.
    Even after the tragic defeat of Ukrainian forces in Ilovaysk in 
August 2014, the Russian military encountered considerable difficulties 
with command and control of its proxies. Rampant criminality also 
prevailed as the various proxy groups organized themselves into mini-
fiefdoms. This led the Kremlin to send high-level emissaries to reign 
in the various warlords, and when that failed special forces even 
resorted to assassination and forced extraction from the battlefield. 
The leader of the Cossack Great Don Army, Nikolai Kozitsyn, was for 
example forced out of the Donbas by Russian services. Another prominent 
Russian commander, Igor Strelkov (aka Igor Girkin), was also removed. 
To instill greater professionalism among its proxy forces, therefore, 
Moscow has increasingly turned in both Ukraine and Syria to private 
military companies.
    I would contend that Moscow's greatest success with proxy groups 
has not been on the battlefield but on the diplomatic stage. Using the 
Geneva International Discussions on Georgia as a model, the Kremlin has 
insisted that no negotiations take place without the involvement of 
proxy leaders. One of the biggest mistakes made by the Western leaders 
of the ``Normandy Group'' (France, Germany, Ukraine, Russia) was to 
agree to Russia's demands and elevate the role of Russian proxies in 
the February 2015 Minsk Protocol. By establishing a parallel 
negotiation process involving proxies, Russia has largely been able to 
evade blame for its failure to implement even the most basic elements 
of the Minsk agreement: ceasefire, withdrawal of heavy weapons, and 
unlimited access for OSCE [Organization for Security and Co-operation 
in Europe] monitors to the territory of the Donbas. The result is a 
kabuki negotiation led by the OSCE in which the proxies stonewall any 
meaningful progress on implementing the agreement. So long as this 
dynamic is maintained and Moscow is able to hide behind the claim that 
local leaders are to blame for the impasse, the conflict will almost 
certainly continue unabated. Conversely, the sooner the international 
community cuts through the fiction that local actors call all the shots 
and applies pressure on Moscow, the closer we will be to a real 
negotiation aimed at resolving the conflict.
                         sabotage and terrorism
    Sabotage and acts of terrorism have also been used in the Ukraine 
conflict. On the same day that former Duma member Denis Voronenkov was 
assassinated in Kyiv, an act of sabotage destroyed a large munition 
depot in Balaklia, forcing the evacuation of 20,000 civilians form 
nearby areas. Earlier in the conflict, Ukraine's security service, the 
SBU, accused Russia of having orchestrated a bombing attack on a rally 
in Kharkiv in February 2015 that killed a policeman and a civilian as 
well as bombing attacks on railroads, a courtroom, a pub frequented by 
pro-Maidan supporters, and the offices of a pro-Maidan NGO. Given the 
long border between Russia and Ukraine and extensive societal and 
family ties between the two countries, preventing acts of terrorism and 
sabotage remains difficult and relies heavily on good intelligence and 
societal resilience.
                   political and economic subversion
    Finally, political and economic subversion have increasingly become 
Russia's favored method of seeking to exert control over the government 
in Kyiv. Indeed, Russia has increased its political influence 
operations not just in Ukraine but throughout Europe and the United 
States, seeing them as a cheaper and more effective way to achieve its 
aims in the gray zone. Unconventional military operations carry a 
significant degree of risk, while political influence operations are 
easier to carry out and are camouflaged behind an often convoluted 
faade of corrupt business and political ties.
    As part of this subversive campaign, Russia's intelligence services 
and Kremlin-linked oligarchs have targeted Western political parties, 
businessmen, politicians, media organizations, and NGOs. The goal is 
not always to influence a near-term political outcome, but sometimes 
simply to burrow into a country's political and economic fabric. In 
this way, corrupt ties and kompromat (material for blackmail) can be 
built up in reserve and deployed at the opportune moment. The primary 
tool used in these influence operations is Russia's vast network of 
corrupt patron-client relations, which extend not only to the former 
Soviet space but also to Europe and the United States. Russian 
businessmen who have professional ties in a particular country can be 
``encouraged'' to donate money to select NGOs, offshore companies can 
be used to funnel money to political parties, and Russian cultural 
organizations such as state-run Rossotrudnichestvo can be used to forge 
ties with pro-Kremlin diaspora groups. Money laundering schemes using 
shell companies or ``one-day firms'' help to channel the flow of licit 
and illicit money from these various actors to favored politicians, 
NGOs, and media organizations.
    To counteract this rising tide of Russian political subversion, 
Western states need to build more transparent institutions, 
particularly with regards to political party financing, and empower 
anti-corruption organizations, financial investigation units, and law 
enforcement bodies to coordinate with intelligence organizations to 
root out entrenched and corrosive Russian patronage networks. The 
United States should seriously consider establishing a standing 
interagency operational body dedicated solely to interdicting illicit 
Russian influence operations. Current interagency efforts to track 
Russian malign influence are not sufficient because of the firewall 
between policy agencies like the State Department and National Security 
Council on the one hand, and law enforcement bodies on the other.
    On the policy side, the United States must also make better use of 
the tools already at its disposal. Financial sanctions against Russia 
remain vastly under-utilized given the scope of financial leverage the 
United States has over Russia. To date, the United States has only 
applied full blocking sanctions on one Russian bank, and that bank is 
not even among the 20 largest Russian financial institutions. 
Furthermore, personal sanctions against corrupt individuals such as 
those mandated by the Magnitsky Act have barely been utilized at all, 
with less than 30 individuals designated since 2012.
    Finally, in the United States it is vital that an independent 
Special Prosecutor be empowered to investigate allegations of ties 
between the Russian Government and United States political actors. Of 
all the lessons from Russia's influence operations in Ukraine and 
elsewhere in Europe, this one impinges most directly on our national 
security. It is frankly impossible to understand how one could point to 
vulnerabilities among our Allies and partners while neglecting to 
thoroughly and impartially investigate Russia's influence operation 
right here in the United States.
                               conclusion
    The effort to counter Russia's operations in the gray zone should 
start in Ukraine, where Moscow continues to fight an unconventional war 
against Kyiv. To check Russian influence in Ukraine, the United States 
must dedicate more resources to bolster military training programs for 
Ukraine's conventional and special operations forces. It should provide 
Ukraine with defensive weapons such as anti-tank missiles and equipment 
such as counter-battery radars with advanced fire control systems and 
more effective Intelligence, Surveillance, and Reconnaissance (ISR) 
platforms. On the diplomatic front, the United States cannot afford to 
remain a spectator as the Normandy Group engages in endless 
negotiations. The United States must get involved in these negotiations 
and help the parties develop a concrete roadmap of actions to implement 
the two Minsk agreements of September 2014 and February 2015. 
Crucially, this roadmap must specify specific dates by which actions 
must be completed and consequences for failing to meet required 
deadlines. To sharpen United States leverage, the United States should 
consider unilaterally tightening current debt and equity restrictions 
on Russian financial institutions, and if necessary incrementally apply 
blocking sanctions to signal resolve. Positive incentives should also 
be offered for compliance with the Minsk roadmap. Lastly, the United 
States needs to continue to support Ukraine's reforms, in part by 
applying strict conditionality to United States assistance and 
insisting on Ukrainian follow-through, but also by encouraging our 
European partners to play a more active role in supporting reform.
    As we consider more robust measures to push back on Russian 
influence operations in Ukraine and elsewhere in Europe, we cannot 
blind ourselves to the painful fact that these operations have been 
targeted at the United States as well. I have argued before that if 
Russian aggression in places like Georgia and Ukraine is not checked, 
Russian malign influence will continue to spread to our allies in 
Europe as well as here in the United States. Now it is a fact that 
Russia has sought to corrode one of the most sacred institutions in 
this country: our democratic process. We must be prepared to respond 
with the sense of seriousness and urgency that is required.

    Senator Ernst. Thank you, Dr. Carpenter.
    Lieutenant General Cleveland.

   STATEMENT OF LIEUTENANT GENERAL CHARLES T. CLEVELAND, USA 
    (RET.), SENIOR FELLOW, MADISON POLICY FORUM, AND FORMER 
   COMMANDING GENERAL, UNITED STATES ARMY SPECIAL OPERATIONS 
                            COMMAND

    General Cleveland. Thank you. Chairman Ernst, Ranking 
Member Heinrich, members of the subcommittee, thank you for the 
opportunity to share some thoughts, some old-guy thoughts as I 
would say, on unconventional warfare, population-centric 
warfare, and the challenges the United States faces 
encountering nontraditional or nonconventional strategies.
    Russia's success in Crimea and its actions in eastern 
Ukraine have caused the world rightly to take note. Through the 
creative use of violence and threats, Russia redrew, as was 
mentioned earlier, the international boundaries for the first 
time in decades. Its success to date is destabilizing an 
international system that had put in check the territorial 
ambitions of its members. Disturbing is the fact that they were 
so successful without paying much of a price, at least 
politically, as Putin remains popular with his people.
    The United States military's response has been appropriate 
and if not predictable. Increased exercises engaged in joint 
planning learn from Ukraine and try to find and apply 
countermeasures in the Baltics. In the last few years, though, 
I would submit not only from that experience but from my 
experiences around the world, we have learned a few things. We 
have learned that the limits of our understanding of foreign 
cultures matter. We have learned how important that 
understanding is to developing viable security policies and 
responses. We have learned the limits of our funding 
authorities and the inadequacies of some of our existing 
civilian and military organizations and their understanding of 
indigenous-centric warfighting. We have learned the inadequacy 
of our current ability to use psychological and information 
operations, which has been mentioned earlier. We have learned 
the hard lesson of the inelastic element of time in these 
population-centric wars.
    But these limitations obviously are not just with Russia 
and its nefariousness. It is in fact with actors that are 
practicing this form of warfare around the world. I would 
submit that our lack of understanding of this form of warfare 
has helped lead to poor results in Iraq and Afghanistan as 
well, and have limited our thinking and options in Syria, 
Yemen, and pretty much everywhere population-centric wars are 
being fought.
    I offer the following eight points: First, recognize that 
these population-centric wars are different from traditional 
war. Two dangerous myths are that such wars are only a lesser 
case of traditional war or, to the contrary, these are graduate 
levels of the same war. Neither is correct and both lead to bad 
assumptions that we can be successful by just doing better with 
what we have got or go bigger with what we have got or invest 
more money more wisely.
    We have a laundry list of alphabet soup ad hoc structures 
created over the past 16 years. It was the battlefield's way of 
telling us that what we brought to those fights was not enough. 
New models, concepts, and resulting doctrine organizations and 
leaders and soldiers are needed in my view, particularly above 
the tactical level.
    Secondly, whatever America's new strategy works out to be, 
I sincerely hope, as one who lived my life under the special 
forces motto of de oppresso liber, that it does not relegate 
hundreds of millions of people around the world to tyranny. The 
inevitable instability that would result would force our 
involvement anyway, given as interconnected as the world is 
today. So it is better that we proactively gain an 
understanding, shape and act in concert with like-minded 
friends, partners, and allies, providing leadership when 
necessary and inspirational always.
    Consensus on a national strategy beyond simply an open-
ended fascination with CT [counter-terrorism] is critical for 
providing direction and clarity. Containment was a powerful 
centering concepts that helped drive security-sector efforts. 
It was perhaps practiced differently between the political 
parties, but by and large it remained an organizing principle 
throughout the Cold War. Whatever comes next, my 
recommendation, given the instability in the system and the 
provocations by regional actors and non-state groups, that it 
be underpinned by an unmatched soft indigenous-centric and 
direct-action warfighting capability, superior and elite high-
end conventional forces, and a robust diplomatic core.
    Third, organize around the reality of modern political 
warfare or, as my lawyer preferred to call it, unconventional 
diplomacy. Russia, China, Iran are each employing these forms 
of political warfare and calls for the United States to relearn 
lessons from the Cold War on its own approach to political 
warfare are worth serious consideration. For example, our 
acknowledged problems conducting effective information 
campaigns might improve with a 21st century variation of the 
United States Information Agency.
    Some other ideas are, one, ensure that the NFC has UW 
[unconventional warfare] expertise or unconventional warfare 
expertise; two, create a Deputy Assistant Secretary of Defense 
for Special Warfare, that being unconventional warfare to 
foreign internal defense or population-centric warfighting; at 
the State Department, create a bureau for political warfare led 
by an official of ambassadorial rank similar to what they have 
done with counterterrorism; and four, create the creation of a 
joint special warfare command within SOCOM [Special Operations 
Command] that would hopefully match the success of its direct-
action counterpart. It would be an interagency command with 
perhaps a deputy from another agency, another government agency 
or state and other interagency officers serving as fully 
empowered members on a tailored headquarter staff.
    The TSOCs or the Theater Special Operations Commands, 
currently COCOM [combatant command] to SOCOM, could be 
subordinated to such a headquarters, freeing the SOCOM staff to 
focus on their policy procurement, joint soft doctrine 
development, and unit-readiness missions. This structure would 
give more weight to SOCOM's unconventional warfare of foreign 
internal defense, civil affairs, and psychological operations 
or military information support operations by providing a 
single headquarters that would, by necessity, be the advocate 
for U.S. support to indigenous warfighting, unconventional 
warfare, and foreign internal defense.
    SOCOM has concentrated money and effort rightly towards 
building an exquisite direct action capability, but other of 
its legislative missions have suffered, particularly, in my 
view, information operations.
    Fourth, the U.S. has been seeking the holy grail of whole-
of-government warfighting for well over 50 years. Presidents 
have issued several decision directives to get at this, but it 
remains elusive. There must be an outside forcing function to 
do better in my mind. Putin's success directly reflects the 
Russian hold on all levels of government and the elements of 
power outside of government and their adept use, resulting in a 
sophisticated, complex, hybrid war or unconventional warfare 
campaign. Certainly that is easier for an authoritarian 
government. But the stovepiped authorization and appropriation 
of funds creates internal pressures that work against 
developing cross-department solutions. Add to that the 
different cultures of the security sector departments and 
agencies, and it is rare to see any real moves towards creating 
a truly interagency solution.
    It is fair to ask the question who funds whole-of-
government or whole-of-nation solutions to a problem? We do 
not. Instead, we fund in pieces and parts. Department and 
agency projects entrust they come together somewhere to get the 
job done. Congress may want to look at funding incentives to 
promote collective planning.
    Fifth, recognize that our critical weaknesses and gaps in 
defense are above the tactical level. Our standing campaign-
level headquarters, primarily the U.S. Army Corps and U.S. 
Marine Corps MEFs [Marine Expeditionary Forces] are rightly 
organized around conventional warfighting. The one operational-
level SOF headquarters is primarily organized around the 
counterterrorism and direct action mission, as it needs to be.
    A dedicated operational-level headquarters around the 
execution of indigenous-centric campaign such as Iraq and Syria 
today is merited. A hybrid soft conventional interagency U.S. 
Army base core that is designed for complex contingency merits 
consideration. These kinds of operations are no longer the 
aberration but in fact are the norm. We should organize 
accordingly.
    Six, develop the 12XX funding authority like 1208 for CT, 
for soft formations now need access to funds to develop 
indigenous UW capabilities obviously approved by the country 
team, obviously approved by the geographic combatant commander 
in an approved campaign on the part of the United States or the 
foreign internal defense appropriate capabilities to counter a 
hostile country's unconventional warfare threats that are not 
CT-related.
    Seven, the most prevalent forms of competition and conflict 
around the world today are resistance, rebellion, and 
insurgency. They manifest themselves oftentimes in the use of 
the tactic of terror and, if successful, they culminate in 
civil war. Yet despite its prevalence, DOD has no professional 
military education dedicated to these forms of warfare, the 
service's own professional military education responsibility 
for their soldiers, sailors, airmen, and marines. The result is 
that a deep understanding of these conflicts, these most 
prevalent forms of war, within the ranks depends primarily on 
the individual initiative of the leader. There are some 
electives at the various command and staff in war colleges but 
the net result is that military leaders get very little formal 
education on this form of war.
    More concerning to me is the fact that our Special Forces, 
Civil Affairs, and SIOP officers, and those who eventually 
become the leaders who learn the basics of population-centric 
warfighting in their qualifications course, but from that point 
on are in a professional military education program focused on 
essentially conventional warfighting.
    Those who attended Army schools appreciated the--those of 
us who attended the Army schools appreciated the year at 
Command and General Staff College and the Army War College, 
both institutions of which I am a graduate, and I appreciated 
the year with our conventional counterparts and some of the 
lessons certainly that are universally important to 
warfighting. But it did not make me much better really at the 
form of warfighting that I was to practice on behalf of the 
Nation. SOCOM or the Army--in my view SOCOM should create a 
career-long professional development path for those who are 
charged with being expert at indigenous warfighting.
    Point number eight and my last point is we are the good 
guys. You know, our asymmetry again in my view is who we are 
and from where the United States Government and this great 
nation derives its strength. While Russia, China, and Iran must 
control their people, the strength of our country is our people 
and their belief in our form of government, the inalienable 
rights granted by our Creator, the guarantees of life, liberty, 
and the pursuit of happiness. I think that provides us and 
those that are privileged enough to have this as a form of 
government around the world the resilience that Dr. Carpenter 
was talking about in our social structure.
    A deep understanding and commitment to the development and 
maintenance of world-class unconventional warfare capability 
can be a powerful tool in countering the use of surrogates in 
hybrid warfare by revisionist and revolutionary movements. It 
has the potential to impose costs on them. It holds them at 
risk. In addition to providing an offensive capability from 
which we can learn and stay abreast of the art and science of 
warfighting, it is in fact I think necessary as we see the 
evidence of an emerging domain--a new emerging domain of war, 
the human domain.
    I am not optimistic, however, that DOD can address its 
deficiencies. It will need Congress' help. We should be asking 
on behalf of the American taxpayer if we knew in early 2002 
what we know now, what would we do differently? What has SOCOM, 
the Army, and the Marine Corps as land components learned these 
last 16 years, and what does that portend for the future?
    Multidomain battle might be the beginnings of a replacement 
for air-land battle but only if we acknowledge in my view that 
the human domain, this place where insurgencies, resistance, 
and rebellion happen, takes its place along the traditional 
four domains, land, sea, air, and space, and the newly 
acknowledged cyber. It appears in fact in my view the Russians 
have learned this lesson and are getting better at it, as we 
continue to admire the problem.
    Thank you, Madam Chairman.
    Senator Ernst. Thank you to our witnesses.
    We will start with our rounds of questions, and we will 
limit those to five minutes of questions and answers per 
Senator.
    General Cleveland, if I could start with you, why were the 
Russians so successful in achieving their objectives of 
illegally annexing Crimea and destabilizing eastern Ukraine, 
and why do you think United States special operations forces 
are prepared today to counter situations like that in the 
future?
    General Cleveland. Ma'am, I am not sure--I mean, the 
Russians had a tremendous home-field advantage in Crimea, and 
we would have had to recognize and understand alongside the 
Ukrainian Government early, early on what was happening. I am 
not sure that we had our antenna out to be sensitive to that 
and then be able to react early enough to counter what was 
going on using many of the things that were spoken about 
earlier, being transparent, you know, shaming, bringing that 
out, providing perhaps some information warfare antidote to 
just the blitzkrieg, as was described on the information front.
    I think that special operations forces today, as you have 
noted in your opener, we have been focused primarily on the CT 
mission. However, there is an element within SOCOM in the 
special operations community which has been applying its trade 
in indigenous warfighting that maybe earlier on, had we had the 
political will to commit to supporting the Ukrainian Government 
in its early, early stages, we could have at least been a 
tripwire. We could have perhaps provided some capability. We 
would have shown perhaps resolve that we would not let this 
type of nefariousness stand.
    But that is a policy decision. That is what you all get 
paid the big bucks for. So, again--but I think that the tools 
were there. Whether they were considered in the deliberations 
and whether those that were in a position to advise were 
literate enough to provide what those options might look like, 
that I do not know. I was obviously focused still at Fort 
Bragg.
    Senator Ernst. Absolutely. Thank you very much, General. I 
appreciate it.
    Dr. Carpenter, to counter Russian information operations, 
you say that the United States should take a more proactive 
approach, including identifying and taking action against 
Russian misinformation or debunking those false stories, and I 
agree with you on that point. Can you explain to us what role 
the messaging in Russian films and TV shows plays into this 
information campaign, and then also what about social media and 
how that applies to the situation?
    Dr. Carpenter. Well, Russia has made great use of the 
virtual monopoly that it has on broadcast television inside 
Russia but then also in occupied parts of Ukraine to be able to 
get its message out. It relies on very slick programming that 
appeals to the folks that tune into TV. It is shows, it is 
other--it is comedy, it is movies, but then it is also 
interspersed with propaganda. It is very difficult to combat 
when most people in these areas get their sources of 
information from TV.
    I think the way to go about combating that is to try to go 
and use the various platforms that we have available to get the 
message out in this information space. So I would actually 
separate this into two things. There are things that we need to 
do here in the United States so we have RT, we have Sputnik, 
which are Russia propaganda programs here in the United States. 
Frankly, I would advocate using more regulatory tools to, for 
example, put a banner at the bottom of the screen saying this 
programming is financed by the Russian Government or is Russian 
Government programming so the people are aware. We still 
protect the First Amendment rights to watch what they want to 
watch, but they are aware just like we do with cigarette 
packages to warn them what it is that is inside the package.
    In Russia and inside occupied Ukraine, it is a little bit 
more difficult. The BBG [Broadcasting Board of Governors] has 
developed some digital tools so that is programming that is now 
available on a 24/7 basis that can get inside to Russia, but it 
is available on the internet. Most people still tune into 
broadcast TV to get their news and to get sources of 
information.
    But we need to push more. We need to get out a message not 
just--we cannot just play whack-a-mole and continuously try to 
debunk every single fake news story that Russia puts out there. 
That puts us on the defensive. We need to start to put out 
information about what is going on in Russia in terms of 
corruption. You see the protests that just took place on Sunday 
across almost 100 cities within Russia, and so I think getting 
the message out will resonate in Russian society.
    It is just simply a matter of letting people know what is 
actually happening with their government. I think a lot of 
Russians to this day believe the government in Kyiv is run by 
fascists. They believe all kinds of fake news stories that have 
been peddled simply because they do not have an alternative 
source of information. So we need to get better at that.
    The Baltic States have also been good at putting out some 
broadcast programming that aims at Russian-speaking audiences. 
It is limited to the Baltic region, but we should explore 
supporting them and trying to get that broadcasting out to more 
Russian speakers.
    Senator Ernst. Very good. Thank you.
    Ranking Member Heinrich?
    Senator Heinrich. Dr. Carpenter, what would be the 
technological limitations or other limitations to allow us to 
reach people on broadcast television as opposed to the internet 
platform from some of those neighboring states?
    Dr. Carpenter. So I think----
    Senator Heinrich. What kind of reach could we foreseeably 
actually have?
    Dr. Carpenter. So I think it is very difficult to be able 
to broadcast into Russia itself because they control the means 
of both blocking foreign broadcasting and, as I said, they have 
a virtual monopoly on this. But that does not mean that we 
should not try, especially in regions like the Baltic. I was 
told by those who lived through the Soviet experience in the 
Baltics that those who lived near the Polish border would tune 
in to Polish TV, they would listen to--even though Polish TV 
was also part of the Warsaw Pact, it was also propagandistic. 
But it was more open than Soviet television, and so they would 
listen, and then they would transmit those messages to friends 
and acquaintances and spread it through their social networks.
    I think if you have broadcast programs in the Baltic, in 
Ukraine, in Moldova, in Georgia, in places on Russia's 
periphery, it will seep into Russia. It may not be as effective 
as if you had broadcast television in Moscow and St. 
Petersburg, but it will go a long way. I think the Russian 
people actually crave more information, and when they are 
exposed to it, they will benefit.
    Senator Heinrich. On a sort of related question, and this 
is really for any of you, given Russian employment of 
disinformation and digital trolls and bots in Western 
elections, including our own last year, and the fact that the 
issue that you, Dr. Oliker, brought up of people preferring 
their own information sources and discounting all others is 
certainly not limited to Europe. We see that very much the case 
in the United States today, people self-selecting information 
sources and almost living in parallel universes.
    What lessons can we learn actually from countries like 
Estonia and others that have been on the frontlines of this 
dual world
for longer than we have and have developed a sensitivity to the 
manipulations of the Russian Government? How can we take some 
of the lessons that they have had and utilize them in our own 
self-awareness of what is going on here and now? This is for 
any of you really.
    Dr. Oliker. Thank you. I would actually say, you know, I 
was watching the protests in Russia on Sunday. One of the 
things that is most striking about them was the number of youth 
that were out there. The protests we saw in Russia in 2011 and 
2012 were mostly middle-aged and older folks. This was a lot of 
young people. This is very preliminary, but my sense is they do 
not get their information from television. They get their 
information from the internet, from each other. The other thing 
we saw before the protest was some reports of conversations of 
faculty and students in Russian schools, which also evidenced a 
certain amount of critical thinking.
    So I think there are actually lessons we can take from 
Russia here that--and I do not--you know, I do not know that 
governments can do this well but I think the private sector may 
be able to, which is about figuring out how to target youth, 
recognizing that youth are bright and are discerning and are, 
you know, perhaps intrinsically distrustful of what older 
people tell them and using that-- not so much using it as a 
propaganda tool of the United States Government but creating in 
the marketplace of ideas a real market for truth.
    I think that is something--and we in the United States and 
our partners and allies in Europe can help support our private 
sector in doing that. But I very strongly do not think this is 
a government task.
    Senator Heinrich. Do either of the rest of you have an 
opinion about what lessons we might learn from some of our 
allies like Estonia?
    Dr. Carpenter. So I would just say that we do need to get 
much more savvy about using social media to reach out to 
Russian youth. I do not think it necessarily has to be a 
government-funded website or a government-run social media 
platform, but providing the content to others to be able to 
disseminate I think is important.
    To give you an anecdote, about a year and a half ago there 
was a woman in the Russian city of Yekaterinburg who was 
putting--on her personal blog she was just simply putting 
stories from Reuters and AP [Associated Press] on what was 
happening in Ukraine, and she was charged with treason and put 
in jail. So this demonstrates to me that the Russian Government 
is extremely sensitive to having this information even on a 
digital platform, even on a blog, and reacts accordingly.
    I think if we can get the information out there and, yes, 
it tends to be clunky when it is run by government public 
institutions, but there are ways we can partner with more 
commercial, private, sleeker outfits that are able to get the 
message out, and I think it will have a great effect if we do 
that.
    Senator Heinrich. Thank you.
    Senator Ernst. Senator Peters.
    Senator Peters. Thank you, Madam Chair.
    I would like to expand some of the conversation and, Dr. 
Oliker, you brought this up is that, as troublesome as the 
Russian activities are, and they are very troublesome, it also 
I think indicates that we have some greater vulnerabilities 
across the globe in terms of some of the weakness in 
institutions that are essential. In fact, I think in your 
written testimony you talk about the only way we really protect 
ourselves and others against this is to have strong 
institutions.
    I was struck by the Munich Security Conference, which I had 
an opportunity to attend, and the theme of that was post-truth, 
post-order, and post-West, which are all pretty scary concepts 
to think about, moving away from order and away from truth. If 
you do not have truth, how do you survive as a democratic 
society?
    In your testimony you talk about how the Russians do 
exploit those sorts of weaknesses with institutions. Could you 
explain a little bit or elaborate on where you think the 
greatest vulnerabilities are with our institutions and how do 
we strengthen them?
    Dr. Oliker. I think right now the greatest vulnerability in 
our institutions is our own move away from truth. The stooping 
to the same level, the shift to an effort to influence rather 
than an effort to inform, and I think also affected very 
heavily by the way that the internet-based news cycle creates a 
demand for information now before it has been processed and 
understood. I do not have a great solution for that one.
    I do think that, over time, accountability, transparency, 
and to some extent regulation can make a real difference, but I 
do think our greatest vulnerability is that if everybody plays 
this game of muddying the waters, the people who are best at 
muddying the waters are going to win, and that is not going to 
be us.
    I also think that our institutions have additional 
weaknesses which are that they were created for a different 
situation. I think our institutions do need reforms and they do 
need strengthening and they do need to be adapted for the 
situations we find ourselves in. Here I am talking about 
international institutions. I am talking about NATO. I think 
these things have served us tremendously well for a very long 
time. We are finding that people are not satisfied with the 
extent to which they serve them now, and I think it is 
important to look at how to adapt them.
    I also think that in Europe we know that Russia does not 
feel it is served well by the institutions that have sprung up 
since the end of the Cold War, and Russia has not been happy 
about this for 25 years. I am not saying we appease the 
Russians. I do say that, as long as they feel insecure, we are 
going to continue to have a problem.
    Senator Peters. Well, if you look at the playbook of how 
someone who wants to take advantage of these vulnerabilities, 
we have seen the playbook before. You go after the press. You 
try to delegitimize the press and say it is all fake news. It 
is just not real and attack it. You keep people of certain 
press organizations out of press conferences, let us say, 
because you attack them. You attack the judiciary. You say 
there are so-called judges or folks of their certain ethnic 
background, and then you can operate perhaps when an 
institution that has to step up and actually be a 
counterbalancing institution like the
    United States Congress that refuses to really bring light 
and bring transparency when we know there have been activities 
that have undermined our basic democracy.
    Is that why, Dr. Carpenter, you believe that we have to 
have a special prosecutor when we know we have direct attacks 
on our democracy? If we are asking other countries to improve 
their institutions, to bring more transparency, how do we make 
that argument when we are not willing to do it ourselves?
    Dr. Carpenter. Well, I think we absolutely have to do it 
ourselves, and in fact I would unpack that and say I think 
there are a couple of separate things that we need to do to get 
precisely at this corruption of our institutional base. One is 
I think we absolutely need an independent special prosecutor to 
look at alleged ties between the Russian Government in the 
Trump campaign. I mean that to me--we have advised other 
countries--one of the conditions for Montenegro to get into 
NATO was that they establish an independent special prosecutor, 
and then when Russia attacked Montenegro on election day with 
an attempted coup d'etat and cyber attacks----
    Senator Peters. Right.
    Dr. Carpenter.--that special prosecutor was then brought in 
to investigate and has done a standup job in doing so. If we 
can advise Montenegro to do that, we need to be able to have 
the political will to do that here at home.
    But I also think that in addition to investigating this 
particular instance of Russian interference in our electoral 
process, I think we need a 9/11-style commission as well to 
look at Russian influence operations in the United States writ 
large and what we can do about it. It will be independent. It 
will have time, not focus narrowly on the prosecution of this 
particular case, but look at a broader writ and examine what 
Russia is doing and how we can combat it.
    Finally, as I have said in my testimony, I think we need to 
stand up an operational body that is composed of interagency 
players that is dedicated--so within government, separate from 
the 9/11-style commission--that will look at Russian influence 
operations and how to counter them.
    Right now, we have a number of groups in the State 
Department, in the Pentagon. I participated in them. I can tell 
you they are largely talk shops that try to diagnose the 
problem. They do not necessarily propose solutions, and they 
are not resourced to be able to do anything about it. So we 
need to have this sort of operational group that can 
specifically go after instances where we know Russia is 
interfering in our process and then try and eradicate that.
    Senator Peters. Thank you.
    Senator Ernst. Senator Fischer.
    Senator Fischer. Thank you, Madam Chair.
    Dr. Carpenter and Dr. Oliker, I assume that you both 
believe that Russia is going to attempt another gray zone 
provocation? First of all, is that correct?
    Dr. Oliker. I think eventually almost certainly. I think, 
you know, again, it depends on how you define the gray zone. If 
we are looking at action across borders that involve some 
military, quasi-military activity, I am probably looking at 
Moldova and Belarus more than I am looking at the Baltics.
    I do think that when the Russians do it, it is not a--oh, I 
do not think the Russians are sitting around thinking where can 
we create a provocation. I do think that they tend to respond 
to what they see as threats to them with actions and sometimes 
actions in different areas, what we call horizontal escalation 
where you are attacked on one front and you respond on another. 
I do think they are looking for point of weakness where they 
might do that.
    I do not think that for them Crimea and east Ukraine 
started out intentionally as a provocation of the United 
States, the West, and the global order. They were thinking of 
themselves very genuinely as defending their interests. When 
they realized, though, that they could affect the system that 
way, I think they got excited.
    Senator Fischer. Before you answer, Dr. Carpenter, if I 
could just follow up. You said not the Baltics but Belarus and 
Moldova. Does that follow along with a comment you made then 
also that it may not be where they feel a direct threat but 
kind of a--I do not know if you would say it is a diversion, a 
softball over someplace else to divert attention or just an 
opportunity presents itself in another country instead of where 
they might really be focused?
    Dr. Oliker. So I think that the Russians are deterred in 
the Baltics pretty effectively. The Russians would not have 
been so neurologically afraid of the incredibly unlikely 
contingency of Ukraine joining NATO if they did not believe in 
NATO. So, first point. The Russians have pretty much accepted 
the Baltics are gone.
    This said, I think if the Russians feel that NATO is 
sufficiently weakened that there is a question there. There are 
certainly people in Russia who might develop designs on the 
Baltics. Right now, they are concerned about the Baltics, they 
are concerned about a Western military buildup there, they are 
worried about Kaliningrad. But if you look at it from their 
perspective and the way they write and talk about it, it is 
about the Western threat to them.
    I think they also are spread thin enough with their 
operations in Ukraine and Syria with that, and they recognize 
the possibility that Ukraine might evolve to require even more, 
that they are not that interested right now in doing too much 
elsewhere. I could be wrong on that, but on the one hand they 
claim that they have very high manning levels. On the other, 
they have instituted a six-month contract. They do not send 
conscripts into combat but they are letting people sign a 
contract to become official military for just six months, which 
I take to mean they are having a hard time staffing even the 
limited contingencies they are in, which makes it very 
difficult to stretch.
    Senator Fischer. Dr. Carpenter, your thoughts, please.
    Dr. Carpenter. I guess I take a little bit of issue with 
that. I would distinguish between whether you are looking to 
understand whether Russia would carry out an operation like 
that in Crimea involving little green men, special forces in 
uniforms without insignias or whether we are talking about 
something a little bit even more covert than that, which is 
little gray men, the sorts of intelligence operatives who 
directed the seizure of buildings in the Donbas in the spring 
of 2014.
    I think if you are talking about the latter, I think it is 
ongoing throughout Europe. I think we see influence operations 
of various degrees happening as we speak obviously in Ukraine 
but also in Georgia, in Moldova. If you look back just a couple 
years ago, an Estonian senior law-enforcement official was 
abducted from Estonian territory--now, this is a NATO ally--and 
taken to Russia. That was in a sense a gray zone provocation. 
It was not little green men crossing the border, but it was 
intelligence agents crossing the border and abducting and 
kidnapping.
    As I mentioned in my testimony, there was an assassination 
last week, exactly a week ago today, in central Kyiv of an 
exiled Duma member because he was revealing information about 
Russian Government ties to both Yanukovych and also the start 
of the war in Ukraine.
    These operations are happening each and every day sub rosa. 
But do I also worry about the potential for something that is 
more military that involves special forces either in or out of 
uniform? I do. I think that there is--I think Belarus right now 
is also very vulnerable, although it is very closely aligned 
with Russia geopolitically.
    I think Russia believes that Belarus has strayed a little 
bit outside of the orbit, and it has therefore planned and 
exercised in September of this year Zapad 2017 where it has 
requisitioned 83 times the number of railcars to go into 
Belarus than it did when it last did this exercise in 2013. 
Something there does not add up in terms of just purely this 
being a traditional exercise. I think Russia is exerting this 
sort of influence each and every day.
    Senator Fischer. Could I follow up with just hopefully a 
short question? Is that okay, Senator Shaheen? Thank you.
    Dr. Carpenter, when you mentioned that a NATO ally had 
basically had its borders breached so that one of its citizens 
was kidnapped and then you mentioned other countries that are 
not within NATO and events that are happening there, so does 
being a NATO member help these countries or--first of all, just 
yes or no. We do not have--I am already over my time. But would 
it be more helpful to say Estonia, the Baltics if American 
soldiers were stationed there?
    Dr. Carpenter. I think it absolutely does help. I think the 
article 5 guarantee deters Russia from doing a lot of things in 
the NATO space than it might otherwise want to do. That said, I 
do believe there is still room for some of this covert 
provocation and other types of operations that would be below 
the level of conflict, below the level of Crimea as well. Yes, 
United States force posture, in addition to the multinational 
battalions that are deployed in the Baltics, would augment that 
deterrent force.
    Senator Fischer. Thank you. Thank you, Madam Chair.
    Thank you, Senator Shaheen.
    Senator Ernst. Senator Shaheen.
    Senator Shaheen. Thank you. Thank you, both Chair and 
Ranking Member, for holding this hearing.
    Dr. Carpenter, I want to start with your recommendations 
that we need an independent investigation of Russia's meddling 
in our elections because I absolutely agree with you. I am 
puzzled by why we do not have more of the country outraged 
about this and why Congress is not outraged about this. This is 
not a partisan issue. This is about Russia meddling in our 
elections. That takes their activities in the United States on 
a political level, on espionage, whatever you talk--to a whole 
different level. They are not only doing it here, they are 
doing it in Europe. What message does it send to Russia that we 
have failed to take action in response to their activities?
    Dr. Carpenter. Well, I think it is incredibly provocative 
that we have thus far failed to seriously investigate this. I 
think we still have time to do so. But this was an influence 
operation aimed at the heart of American democracy, and if we 
do not respond, Russia will learn the lesson that it can 
continue to probe and it can continue to push the boundaries. 
It will interfere again, and it will continue to meddle in our 
process.
    You know, there was an article that appeared in the 
Associated Press indicating that Mr. Manafort, who was campaign 
chairman, had proposed in fact confidential strategies, ``that 
he would influence politics, business dealings, and news 
coverage inside the United States, Europe, and the former 
Soviet republics to benefit President Vladimir Putin's 
government''. That is from an AP story.
    I cannot verify whether that is correct or not, but I can 
say if it is correct, then we have a former campaign manager 
for our President who was involved in the type of influence 
operation that we are discussing, the gray zone operation that 
we have been talking about in all these other countries here in 
the United States if this is true.
    Senator Shaheen. Well, I agree.
    Dr. Oliker, one of the things that you said I think in 
response to a question from Senator Peters was that Russia's 
actions in Crimea and Ukraine were not looked at as a 
provocation of the West. That really is very different than 
everything else I have heard in the Foreign Relations Committee 
and the Armed Services Committee about what Russia is doing. 
The explanations that I have heard in both of those committees 
from our witnesses has been that Putin is looking at how he can 
restore Russia's sphere of influence and how he can undermine 
the West, and he sees the United States as the best opportunity 
to do that. His actions are taken with that aim in mind. So do 
you disagree with that?
    Dr. Oliker. The way I would describe it is that Russia has 
been very unhappy with the security order that emerged at the 
end of the Cold War. If----
    Senator Shaheen. Let me just interrupt you for a minute----
    Dr. Oliker. Yes.
    Senator Shaheen.--because one of the things that I have 
heard from those people who were part of the effort with the 
fall of the Berlin Wall and the dissolution of the Soviet Union 
was that there were real efforts, outreach efforts made at a 
time when Vladimir Putin was working for Yeltsin to try and get 
Russia more engaged with the West, to try and point out that 
the expansion of NATO was not aimed at threatening Russia; it 
was aimed at protecting the West. So that does not square with 
what you are saying.
    Dr. Oliker. We have gone back and forth. Twenty-five years 
is a long time, and we have gone through phases of trying to 
engage the Russians and doing that less. The Russians, however, 
after a very brief period of indeed thinking that engagement 
was possible, began to view the United States as looking to 
limit and contain them, as they had in the past. Again, there 
have been times when Russian Governments, including Vladimir 
Putin's, have thought there was room for cooperation.
    The problem has been that the Russian vision of cooperation 
is one of the quality of Russia and the United States as two 
great powers making decisions. The United States view has been 
of Russia as one more power that should certainly be at the 
table but not driving the decision-making. That fundamental 
disagreement has been I think at the core of the problem, that 
they expect far more than the United States has been able to 
give.
    Senator Shaheen. General Cleveland, again, I could not 
agree more with what you are saying about efforts that we need 
to make to address the new threats that we are facing and that 
we have our military primarily designed to address conventional 
warfare. Testimony to that is that I have been on the Armed 
Services Committee now for over five years, and I never heard 
anybody talk about population-centric wars in those hearings.
    You talked about changing military to address the new 
threats that we face, whether they be gray zone threats or 
cyber threats and that Congress would need to do that. Are 
there efforts within the military to make some of these 
changes? I ask you that--I asked a question about our ability 
to respond to what we are hearing from Russia in terms of, you 
know, that future warfare is one part conventional--four-to-one 
unconventional to conventional warfare. I did not get an answer 
that we have a strategy to address that. So are you seeing 
other places within our military where we ought to be looking 
to try and encourage a more robust response to the threats that 
we face today?
    General Cleveland. I think, you know, part of the problem 
is that it is the old ``if the only thing you have is a hammer, 
everything looks like a nail'' sort of problem, right? We have 
defined what is war along what has been very convenient for us 
and where we were very successful.
    Senator Shaheen. Right.
    General Cleveland. The problem is our ability to dominate 
in that space--and I have written some articles about that that 
I have asked that they put in the record just in case you want 
to read some more about it, but our ability to dominate there 
by necessity has pushed folks into traditional forms where the 
weaker--and I put Russia in that basket as well--will use these 
techniques and have used these techniques since time immemorial 
against the stronger.
    The problem and challenges that we have been able to--
probably up through Vietnam--get away with using largely 
conventional forms of warfare against even population-centric 
wars with some success because you did not have a 24/7 news 
cycle, you did not have everybody with a smartphone sitting 
there as a reporter, and you did not have international bodies 
that actually start bringing people up on war crimes. 
Population control measures and things that you in the past 
would use or even the, you know, reduction of cities if you go 
back far enough, just no longer are acceptable.
    There is a growing recognition that that aspect of our 
warfighting, that environment if you will, has shifted out from 
under us. There is discussion about, okay, what do we do about 
that. But it is like the 180-pound running back that gets the 
task of hitting, you know, the 290-pound defensive end, right? 
That 290-pound defensive end represents a pretty robust, you 
know, military-industrial complex, you know, to use Ike's term, 
that is kind of built to protect the Nation a certain way. That 
180-pound running back cannot hit him shoulder pad to shoulder 
pad. You really have to go at the knees. In other words, there 
is something fundamentally--and that is where in my own way of 
thinking about this is we for too long have been kind of saying 
let us bounce these ideas off of conventional warfighting. That 
just has not worked, right?
    My own analysis is I go to the more fundamental assumptions 
and ask myself whether those assumptions that built this 
military-industrial complex if you will are still valid. My 
answer is not completely, and that space that has changed is 
why I say that what is emerging is in fact this human domain of 
warfare where any domain, just like what was imposed with 
cyber, requires you to build--you know, have a concept in order 
to dominate there and build the right assets, you know, the 
concept, and then build the doctrine, the organization, the 
DOTMLPFs [Doctrine, Organization, Training, Materiel, 
Leadership and Education, Personnel, Facilities and Policy] as 
the military terms it, in order to dominate there.
    So there is awakening, I think, a growing understanding. I 
think there is reluctance because budgeting is a zero-some 
game, and if you say I am going to-- you know, think about what 
happened with cyber. You created cyber as a top-down issue. All 
services have to cut out pieces of their budget to do what? 
Build a CYBERCOM and so forth.
    So you are entering dangerous territory when you say, well, 
really what has happened in these wars, a domain of--the human 
domain has emerged because now your military campaign and the 
success of it depends on your ability to actually fight 
successfully in these population-centric wars. If you backwards 
engineer from that, you say, okay, well, then what does it take 
to fight there? What you bump up against is two philosophies. 
Either you need something new, which I would say 16 years after 
Afghanistan we probably ought to start asking that question, or 
you use differently what you have. I would say that is what we 
have been doing for this entire period.
    I think that there is a growing understanding of it. 
Whether that understanding internally can lead to developing 
these new tools and taking more out of other people's budgets, 
I am skeptical of that. That is why I say--and I am not saying 
that, you know, it has got to be a lot, but, you know, I think 
if you look at Afghanistan and Iraq, I go back to my closing, 
you have to ask the question, you know, what would we have done 
differently? I have got to hope that it would be something 
different, right? Because we have not delivered on the 
political objectives that were set in force.
    Senator Shaheen. Right. Thank you very much.
    Madam Chair, could you share with the committee the 
articles that General Cleveland has submitted?
    Senator Ernst. Absolutely. We will make sure those get to 
the committee members.
    [The information referred to can be found in Appendix A.]
    Senator Ernst. I think we have time if you would like just 
briefly a second round of questions. We will conclude with that 
second round.
    Dr. Oliker, you note at the end of your written comments 
that you do not think a Crimea-like scenario is what we need to 
worry about in the future. As we witness continued gray zone 
activities from Russia throughout the Baltics and Balkans, I am 
worried about what scenario we might possibly see there in the 
future.
    Specifically, I am concerned about Russia's involvement in 
Serbia right now and its impact on Iowa's sister country. We 
have a state partnership program with Kosovo, so I do get very 
concerned about those activities in Serbia and how they might 
lead to activities with Russia and Kosovo. So just last week, 
General Scaparrotti said he shared my concerns about Russia's 
activities in Serbia as well. So what type of Russia scenarios 
do you think we might see in the future specifically, you know, 
in that region?
    Dr. Oliker. I am also concerned about the Balkans, and I 
think they bear watching. I think the Russians are very much 
testing the waters for what is possible and what they can get 
away with. I think that--as I said, I do not think they went 
into Ukraine thinking that this was a way to get a standoff 
with United States, but they got one, and it has been more 
advantageous to them than they thought, and it has given them 
opportunities to push in other areas. I think very much the 
Balkans are one of them.
    This said, one of the things I worry about most is not 
things that are intentional, you know, action response, but 
things that are unintentional. I worry a lot about Russian 
military provocations in the seas and the air of Europe. I 
worry about us operating in close proximity in Syria. I worry 
about things that could go wrong because there is so much 
distrust for very good reasons and because there--you know, 
there is a danger of overreaction on both sides.
    So, you know, what I worry about most--I worry about what 
the Russians might do in the Balkans, but what I worry about 
most on the day-to-day level is that somebody is going to shoot 
down an airplane.
    Senator Ernst. Right. Right. Those greater implications.
    I thought it was interesting, Dr. Carpenter, that you 
mentioned the railcars that are being purchased with Russian 
dollars. That was brought to my attention by the Kosovars. They 
mentioned that there are railcars that have been purchased that 
are located in Serbia that have been run into Kosovo. So there 
are some concerns out there. They are wondering, you know, what 
is going on, what type of propaganda is this that exists out 
there. Do you have any brief comments on those types of 
activities?
    Dr. Carpenter. So earlier, I was referring to the railcars 
that Russia is using to conduct its Zapad exercise in Belarus, 
but in Serbia as well there were railcars that illegally tried 
to enter into the territory of Kosovo and that had come from 
Serbia.
    I would say that Russian influence in Serbia is growing by 
the day. The pressure that Russia is exerting on the government 
in Belgrade is enormous. But I think almost more nefarious is 
the pressure and the ties that Russia has with Serbia's 
neighbor, particularly Republika Srpska within Bosnia and 
Herzegovina. There the ties between the Kremlin and Milorad 
Dodik, the President of Republika Srpska, are incredibly close, 
and Russia has essentially been supporting Dodik's efforts to 
talk about secession from the rest of Bosnia, which would be a 
disaster for the whole Balkans and can plunge the region into 
war yet again.
    You have these active attempts by Russia in Bosnia, in 
Serbia, in Macedonia as well to undermine political structures 
and to use influence operations to penetrate government 
institutions, and it is all lubricated by corruption.
    While the Serbian Government has been trying to find a way 
to pursue European Union integration, Russia has also come in 
and you have had the Russian Ambassador make comments in 
Belgrade about why is this in Serbia's interest?
    Senator Ernst. Right.
    Dr. Carpenter. So clearly, they are fomenting opposition to 
Euro-Atlantic integration into Western norms and standards 
across the region.
    Senator Ernst. Thank you very much.
    Ranking Member Heinrich?
    Senator Heinrich. General Cleveland, I want to go back to 
something you mentioned in your testimony. You talked about 
potentially looking at something similar to section 1208 
authority that we use in counterterrorism operations. Could you 
talk a little bit about, you know, what would it look like to 
have 1208 authority-like structure for gray zone entities that 
might be partnerable?
    General Cleveland. Certainly. Again, I think 1208 and the 
strength of 1208 is in its ability to tap into SOCOM's very 
expedited processes to obtain equipment and to deploy forces in 
order to work with partners without having to go through the 
security--cooperation security assistance apparatus, right, 
which has done well by us I think for the most part. I think it 
needs some review overall and streamlining, but it is certainly 
not good enough for helping an advisor who goes into a country 
to say I need to build a CT force.
    For instance, my own case in Paraguay, for instance, we did 
that and we used 1208, and you were able to get money invested. 
You bought equipment and weapons, and it was done through open 
contracts that SOCOM had, and they showed up with the 
counterparts fairly rapidly. If you go through the security 
assistance system, they have obviously a process in place to 
protect us from abuse and all that other kind of stuff. SOCOM 
has a process as well, but it is much more streamlined.
    A 12XX program would do the same thing for countries that 
it is not necessarily a CT problem, but it is actually training 
forces in order to recognize, for instance, counterterrorism or 
unconventional warfare activities. It might be something that 
would have to be expanded to perhaps provide a country's police 
with some training as well. Its military perhaps would have to 
be competent in some elements of their own form of 
unconventional warfare, stay-behind activities if they are 
overrun, for example.
    Senator Heinrich. Right.
    General Cleveland. As it exists right now, there is really 
not a pot of money that the soft forces can call upon to do 
that in what I think is the--with the agility that is necessary 
given the problem there.
    Senator Heinrich. Yes, I think that is something we may 
want to look at in the upcoming NDAA [National Defense 
Authorization Act] process as we move forward.
    I want to go back to you, Dr. Carpenter, for one final 
thought and then I will relinquish the balance of my time. But, 
you know, it occurred to me that the recent Supreme Court 
decision around Citizens United has created a very different 
situation in our internal domestic elections than what has 
historically been the case. I have seen this in my own 
elections. I am sure all of my colleagues have watched as there 
has been less transparency as to where the money is actually 
coming from within elections.
    In most national elections now you have a preponderance of 
the financing of advertisements and things within elections 
actually not originating with the candidates themselves. So you 
may have a Democrat and a Republican running for Congress 
someplace or running for the United States Senate, but the 
majority of the actual financial activity in that election is 
actually from third parties who it is not clear where the 
financing is coming from.
    Do you see that fundamental lay of the land right now 
within our own election structure as an opening for Russia to 
be able to potentially manipulate, especially given their 
expertise at moving financial resources and networks?
    Dr. Carpenter. Absolutely, Senator. I think it is an eight-
lane highway that allows Russia to plow financial resources 
into our electoral system. Russia has perfected this over the 
years. They do not use Russian Government institutions to 
funnel this money. They often use Russian oligarchs or not even 
oligarchs but businessmen who have ties to the Kremlin. These 
businessmen then funded NGOs or other types of organizations 
that are registered in the country where they want to have 
influence, and then those institutions in turn rely on shell 
companies and other types of organizations that are subsidiary 
to them to be able to fund money to candidates, to media 
organizations, to NGOs.
    We saw spontaneously the emergence of NGOs, for example, in 
Romania that were anti-fracking that had come out of nowhere 
seemingly because Russia obviously had an interest in 
preventing that from happening due to its monopoly on gas flows 
to Western Europe.
    So they are very adept at using all kinds of shell 
companies to funnel resources to political candidates and 
parties that suit their interests, not necessarily that are 
pro-Russian but in Europe that are euro-skeptic, that are 
either far right or far left, but that serve Russia's purpose 
in one way, shape, or form and advance their interests. And so, 
yes, Citizens United in my view has opened up floodgates for 
this type of money to pour into our system.
    Senator Heinrich. Thank you.
    Senator Ernst. I want to thank our witnesses for joining us 
today for this subcommittee hearing. I appreciate your input, 
your thoughts. Ranking Member Heinrich, I appreciate your 
participation as well.
    With that, we will close the subcommittee meeting on 
Emerging Threats and Capabilities. Thank you, witnesses.
    [Whereupon, at 11:31 a.m., the hearing was adjourned.]



                               APPENDIX A

  
  
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  
  
      

                                 [all]
</pre></body></html>
